<html>
<title> - AIR FORCE STRATEGIC INITIATIVES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                                     

                         [H.A.S.C. No. 110-97]
 
                    AIR FORCE STRATEGIC INITIATIVES

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            OCTOBER 24, 2007

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13


                  U.S. GOVERNMENT PRINTING OFFICE
41-575                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                       One Hundred Tenth Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          DUNCAN HUNTER, California
SOLOMON P. ORTIZ, Texas              JIM SAXTON, New Jersey
GENE TAYLOR, Mississippi             JOHN M. McHUGH, New York
NEIL ABERCROMBIE, Hawaii             TERRY EVERETT, Alabama
SILVESTRE REYES, Texas               ROSCOE G. BARTLETT, Maryland
VIC SNYDER, Arkansas                 HOWARD P. ``BUCK'' McKEON, 
ADAM SMITH, Washington                   California
LORETTA SANCHEZ, California          MAC THORNBERRY, Texas
MIKE McINTYRE, North Carolina        WALTER B. JONES, North Carolina
ELLEN O. TAUSCHER, California        ROBIN HAYES, North Carolina
ROBERT A. BRADY, Pennsylvania        W. TODD AKIN, Missouri
ROBERT ANDREWS, New Jersey           J. RANDY FORBES, Virginia
SUSAN A. DAVIS, California           JEFF MILLER, Florida
RICK LARSEN, Washington              JOE WILSON, South Carolina
JIM COOPER, Tennessee                FRANK A. LoBIONDO, New Jersey
JIM MARSHALL, Georgia                TOM COLE, Oklahoma
MADELEINE Z. BORDALLO, Guam          ROB BISHOP, Utah
MARK E. UDALL, Colorado              MICHAEL TURNER, Ohio
DAN BOREN, Oklahoma                  JOHN KLINE, Minnesota
BRAD ELLSWORTH, Indiana              CANDICE S. MILLER, Michigan
NANCY BOYDA, Kansas                  PHIL GINGREY, Georgia
PATRICK J. MURPHY, Pennsylvania      MIKE ROGERS, Alabama
HANK JOHNSON, Georgia                TRENT FRANKS, Arizona
CAROL SHEA-PORTER, New Hampshire     BILL SHUSTER, Pennsylvania
JOE COURTNEY, Connecticut            THELMA DRAKE, Virginia
DAVID LOEBSACK, Iowa                 CATHY McMORRIS RODGERS, Washington
KIRSTEN E. GILLIBRAND, New York      K. MICHAEL CONAWAY, Texas
JOE SESTAK, Pennsylvania             GEOFF DAVIS, Kentucky
GABRIELLE GIFFORDS, Arizona          DOUG LAMBORN, Colorado
ELIJAH E. CUMMINGS, Maryland
KENDRICK B. MEEK, Florida
KATHY CASTOR, Florida
JAMES R. LANGEVIN, Rhode Island
                    Erin C. Conaton, Staff Director
                 Andrew Hyde, Professional Staff Member
               Stephanie Sanok, Professional Staff Member
                   Margee Meckstroth, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Wednesday, October 24, 2007, Air Force Strategic Initiatives.....     1

Appendix:

Wednesday, October 24, 2007......................................    51
                              ----------                              

                      WEDNESDAY, OCTOBER 24, 2007
                    AIR FORCE STRATEGIC INITIATIVES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Saxton, Hon. Jim, a Representative from New Jersey, Committee on 
  Armed Services.................................................     2
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Moseley, Gen. T. Michael, USAF, Chief of Staff, U.S. Air Force...     5
Wynne, Michael W., Secretary of the Air Force....................     4

                                APPENDIX

Prepared Statements:

    Wynne, Michael W., joint with Gen. T. Michael Moseley........    55

Documents Submitted for the Record:

    Letter from Gen. Duncan J. McNabb, Chief of Staff, Department 
      of the Air Force, to Hon. Jim Marshall, regarding the 
      potential transfer of the Joint Cargo Aircraft program to 
      the Air Force..............................................    65

Witness Responses to Questions Asked During the Hearing:

    Mr. Bartlett.................................................    69
    Mrs. Boyda...................................................    69
    Ms. Castor...................................................    69
    Mr. Marshall.................................................    69
    Mr. Saxton...................................................    69
Questions Submitted by Members Post Hearing:

    Mr. Bartlett.................................................    75
    Mr. Bishop...................................................    80
    Ms. Bordallo.................................................    80
    Mr. Franks...................................................    81
    Mr. LoBiondo.................................................    75
                    AIR FORCE STRATEGIC INITIATIVES

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                       Washington, DC, Wednesday, October 24, 2007.
    The committee met, pursuant to call, at 9:03 a.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Ladies and gentlemen, we will come to order. 
And our hearing today is on the strategic initiatives of 
America's Air Force.
    Some few weeks ago we had a strategic overview hearing for 
the United States Army, and members found that day's discussion 
to be invaluable, so we decided to have a similar strategic 
overview with the Air Force. And, of course, we intend to hold 
a maritime services hearing in the future.
    There is a common thread among these hearings, and it is 
the heavy burden of war on the military services. Ongoing 
operations are putting a serious strain on the Air Force. While 
the strain on the Air Force is currently not as severe as it is 
for the Army, it is significant.
    It is also important to note that our Air Force has been 
engaged in manning Iraqi-related deployments continuously since 
1990. For them, Iraq has been a marathon as opposed to a 
sprint. Today, I hope we can address the future of the Air 
Force in terms of people, in terms of budgets, and the Air 
Force's role in the Department of Defense.
    And an organization is only as good as its people. For the 
Air Force, the news is pretty good. You have done well in 
recruiting. Your quality of people is exceptional. There is one 
trouble spot; that is recruiting for the Air Guard. But overall 
you continue to recruit and retain high-quality people. That, 
of course, is quite good news.
    The Air Force, however, in 2005 made a decision to reduce 
its force structure by some 40,000 people. Some of us had 
problems with that. We are getting close to fully implementing 
that decision, however, and I am concerned that it is not 
working that well. The savings from this personnel reduction 
have been eaten up by operating costs and have not served to 
boost modernization accounts.
    Since 2005, the Army and Marine Corps have decided to 
increase their ranks considerably, as I have suggested--as 
everyone on this committee knows--since 1995. As a result, the 
Air Force appears to be short of people needed to support a 
larger ground force. I will be interested to hear your views on 
that.
    No Chief or Secretary has ever come before this committee 
to tell us that they have too much money. This year-end, the 
looming budget shortfalls seem urgent. Late last year, the Air 
Force reported a resource shortfall of some $20 billion; that 
was due to mismatch between strategy on the one hand and budget 
on the other. This year, due to the escalating costs for 
energy, health care, maintaining the aging fleet, the Air Force 
reportedly will have a $79 billion shortfall.
    Most recently, I have heard reports of a potential 
shortfall of more than that. Hopefully, you can clarify that 
for us.
    Last, I would mention the roles and missions discussion 
that the Air Force has been deeply engaged in this year with 
your sister services. This is an old and gnawing problem. It is 
one that this committee will help spearhead to cause you to 
look at it--and when I say ``you,'' all of the services--to 
look at it seriously and come to an agreement at some moment 
which will make the dream of Goldwater-Nichols further come 
true.
    And, second, it will save a considerable amount of dollars.
    Today, our distinguished witnesses are Secretary Michael 
Wynne, Secretary of the Air Force, General ``Buzz'' Moseley, 
Chief of Staff of the United States Air Force.
    Now, before recognizing you two gentlemen, let me recognize 
my friend, Jim Saxton, who is standing in for the ranking 
member today.
    Mr. Saxton.

STATEMENT OF HON. JIM SAXTON, A REPRESENTATIVE FROM NEW JERSEY, 
                  COMMITTEE ON ARMED SERVICES

    Mr. Saxton. Thank you, Mr. Chairman. And let me just say at 
the outset how appreciative I am that we are holding this 
hearing today. I think it is a very important hearing on 
strategic initiatives, and quite frankly, strategic challenges, 
which are quite difficult for the Air Force to solve.
    I am very pleased to be here, because I believe the issues 
we are addressing are absolutely crucial to the Nation's 
ability to meet the national security strategy. The issues that 
we will talk about today will focus discussions and shape 
decisions as we continue the conference with the Senate on the 
2008 authorization bill.
    As you mentioned, Mr. Chairman, General Casey and Secretary 
Geren were recently here to testify to this same committee that 
the Army was out of balance. Unfortunately, I am convinced that 
it is not just the Army; it is the Department of Defense (DOD).
    And the Air Force's aging aircraft fleet is a clear 
indicator that the Air Force is out of balance as well. 
Requirements for modernization in the Air Force are enormous, 
far outrunning the dollars available to meet the task. And in 
some cases, we have legislated hurdles which are impossible, or 
at least nearly impossible, to overcome. There can be no more 
concrete example of this than our strategic airlift fleet, and 
I would like to say why in my opening statement.
    The Air Force inventory currently consists of 169 C-17 and 
111 C-5s. While the C-17 fleet is performing well beyond 
everyone's expectations, the C-5 fleet continues to demonstrate 
consistently low reliability and low mission-capable rates. 
This, in itself, directly impacts the cost of doing business. 
Today, it costs the Air Mobility Command $11,626 per hour--
$11,626 per hour to fly the C-5A and B airplanes; and it costs 
$5,960 per hour to fly the C-17. That cost difference, the low 
reliability of the C-5, and the large size and runway length 
requirements drive the Air Force to use the C-17 for more than 
80 percent of airlift missions worldwide and 90 percent in 
theater.
    Faced with this reality, the Air Force set about a program 
to improve the performance and reduce the operating costs of 
the C-5. I supported that program at the outset. In fact, I led 
a delegation to Andrews Air Force Base many years ago to 
actually see the C-5, experience its problems; and we 
authorized the modernization program subsequent to that.
    The core of this effort is the Reliability Enhancement and 
Reengineering Program, generally referred to as RERP. While the 
program is still in its infancy, we were recently notified that 
it suffered a Nunn-McCurdy breach due to substantial cost 
growth. In fact, the latest Air Force cost projections of $17.8 
billion in the program costs are more than 50 percent higher 
than it was originally forecast at a $5 to $8 billion level.
    If you recall, Mr. Chairman, the Fiscal Year 2004 National 
Defense Authorization Act prohibited retirement of C-5 
aircraft, one of the hurdles that I talked about a few minutes 
ago. So today we have an aging fleet of aircraft with low 
reliability rates and high costs to operate.
    We have modernization programs that turn out to be more 
complex, more costly, and less productive than we had 
anticipated.
    And finally, we have those that would prohibit the Air 
Force, here in Congress, from doing anything about it by 
legislating that they must keep these old airplanes on the 
tarmac. In the case of the strategic airlift, we are 
jeopardizing the deployability and readiness of the remainder 
of the armed forces. We are overflying the assets that we do 
have, that is, the C-17 fleet, to compensate for the 
shortcomings of the C-5 fleet that we are trying to sustain, 
and we are pushing an enormous bow wave of procurement 
requirements to generations to come.
    During our question-and-answer period, I will inquire about 
how to fix the airlift recapitalization plan. I supported the 
original plan, as I said a few minutes ago, to modernize part 
of the C-5 fleet. But those who believe that it would be wise 
to modernize the entire fleet, rather than just the newer B 
models, which were the birds to be modernized in the original 
plan, must now realize that the degree of inefficiency and the 
high cost of modernizing all 111 C-5s make it a most unwise 
option.
    General Moseley and Secretary Wynne, the Air Force is 
facing some extraordinary challenges. I thank you for being 
with us today, and look forward to hearing your perspectives on 
these challenges.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Mr. Saxton.
    Secretary Wynne.

   STATEMENT OF MICHAEL W. WYNNE, SECRETARY OF THE AIR FORCE

    Secretary Wynne. Thank you, Mr. Chairman.
    Mr. Chairman, members of this committee, it is my pleasure 
to come before you today to represent our total force of 
active, Reserve, and National Air Guard airmen that provide the 
strategic shield for America in air, space, and, increasingly, 
cyberspace. I appreciate the opportunity afforded to update my 
testimony from the spring as the Congress comes to grips with 
several funding vehicles for the armed forces.
    First, division. Like President Teddy Roosevelt opined, 
speak softly and carry a big stick. Our mission is to provide 
sovereign options that speak directly to this extension of 
diplomacy by other means. This spring, I worried about our Air 
Force future as we get smaller. And recently, in a very public 
way, I filed off a yellow-star cluster about how the strategy 
for recapitalization was not working like I wanted, and I 
worry.
    I have been advised by our historian that we, as an Air 
Force, are now smaller than the Army Air Corps was on December 
7, 1941. More capable? Yes, provided that recapitalization 
picks up the pace. But sometimes, as well, quantity has a 
quality all of its own.
    Our mission spread has steadily increased, and no one has 
relieved us of the strategic mission, even as we stretch our 
forces to protect and supply joint coalition forces in the 
ongoing global war on terror while actively deterring in other 
parts of the world.
    This point was recently hammered home with regard to the 
unauthorized weapons transfer that occurred between Minot Air 
Force Base and Barksdale Air Force Base. This was the sixth of 
12 planned flights to comply with the decommissioning aspects 
of the Moscow Treaty. Weapons transfer procedures were in place 
and validated. The number of people available to make the 
tactical ferry program work was sufficient. The adherence to 
procedure was lacking, and the sequential errors this set in 
motion are being corrected.
    We are asking, via a blue ribbon commission, are the 
training and surrounding procedures adequate to eliminate this 
in the future? DOD is asking General Larry Welch, Retired, in 
his role in nuclear surety, to look across the DOD and identify 
weaknesses.
    The Department of Defense inspector general investigation 
to determine the correctness of our findings is in progress. We 
are satisfied that, with recertification, the tactical ferry 
program could resume in a safe manner.
    Though we are proud of our people who presently serve in 
the ground force tasking, it is a conundrum at this time why 
air taskings are highly desired by ground forces. But that is 
not my present concern because, if we forfeit air dominance in 
the future, this difference is moot.
    Increasingly, the asymmetric advantage that we have, as 
indicated by General McCaffrey in a recent note, is being 
reprioritized in a funding sense. We have recently requested 
that the F-22 line be extended by converting the closure costs 
to long lead to ensure the President has a fifth generation 
line open. As you know, we are nowhere near the requirements 
set by Air Combat Command of 381 of these fifth generation 
fighters. We have been advised informally that this will break 
the bank for the Air Force, unaffordable in fiscal year 2010. 
And it is big money, no doubt.
    I have been told that the Air Force isn't bleeding, and we 
all grieve for the Army and the Marines, and are working hard 
to set the conditions for victory with them. But when the Air 
Force does bleed, as it did in World War II with 40,000 lost in 
Europe and more in the Pacific, or in the fighters, F-4s and B-
52 raids over North Vietnam, to Triple-A--when it does bleed, 
some enemy will have discovered that we have forfeited air 
dominance, and I worry. I was taught some of the best lessons 
are taught by the enemy on the battlefield.
    Strategically, we learned well, and we have held our 
position not in vengeance, but as a sovereign option. And we 
need to husband this, our asymmetric advantage, and never get 
into a fair fight in the air. As well, nurture our advantage 
that we now have in space and grow to dominance in cyberspace.
    So, as an update, you might ask what do we want? Number 
one, your Air Force has gotten more efficient, and we have 
saved resources. Let us supply those resources to 
recapitalization. Don't allow any open production lines to 
close until we have restored and stabilized our Air Force 
readiness. Surging strategic forces too late comes at our 
peril.
    Number two, we are so proud of our people, especially 
supply, maintenance, and adoptive operators in airspace and 
cyberspace, that we worry about the stress and strain that is 
showing up in our retention figures and on families. High tech 
requires high touch, and we appreciate what you can do to 
support our commitment to our Air Force family.
    Number three, we have indicated that we would like as much 
as a $20 billion per year increase to recapitalize at efficient 
rates in air and space and cyberspace. I ask that you take a 
careful look at priorities, and don't easily trade strategic 
advantage to maximize our tactical engagement. The world is 
simply not getting kinder, and both need funding.
    And last, number four, allow us to manage our fleet within 
our Air Force.
    Thank you very much. I am prepared for your questions.
    [The joint prepared statement of Secretary Wynne and 
General Moseley can be found in the Appendix on page 55.]
    The Chairman. Thank you, Mr. Secretary.
    And General Moseley.

  STATEMENT OF GEN. T. MICHAEL MOSELEY, USAF, CHIEF OF STAFF, 
                         U.S. AIR FORCE

    General Moseley. Mr. Chairman, distinguished committee 
members, thank you for the opportunity for the Secretary and I 
to spend some time with you this morning to talk about things 
on your mind as well as things on our mind.
    Let me start by saying, America expects its total force, 
its Air Force, to deliver decisive military power on a global 
scale; and today we are able to do that. Today, we give our 
Nation true global vigilance, global reach, and global power; 
the ability to see and sense targets and activities around the 
planet, in the heavens above, and in the growing domain of 
cyberspace from networks of computer systems, manned and 
unmanned airborne platforms, and through constellations of 
satellites; the ability to reach out and strike these targets 
or activities, supply them or evacuate them, continue to 
surveil them, or simply hold them at risk, deterring and 
dissuading or compelling enemies far from our Nation's shores; 
and the ability to quickly, precisely, and lethally, if 
required, bring American airspace and cyber power to bear to 
impart strategically dislocated and paralyzing effects on our 
opponents in all weather, daylight or dark, at speeds unmatched 
in any medium.
    Yes, your Air Force is the most combat-tested force in its 
history, having been in combat continually for 17 straight 
years.
    The Secretary and I visit our total force airmen, active, 
Guard, Reserve, and civilians at their deployed locations and 
throughout the country. We are bolstered by their morale and 
their uncanny ability to maximize the technology we give them 
to fight in today's conflicts.
    I am impressed by our newly recruited airmen, and by the 
airmen and their families we retain term after term--Guard, 
Reserve, active. And I am awed by the magic that they work to 
keep our Air Force the best in the world. These airmen are 
absolutely committed to winning the war today.
    Today's mission: It is not something we can or will walk 
away from, because our enemies currently fighting in Iraq and 
Afghanistan will follow us home. It is my opinion that we must 
win this war today. However, as a service chief, I am worried 
about tomorrow. Beyond Iraq and Afghanistan, there are storm 
clouds on the horizon, troubling global trends that will bring 
friction, competition, and conflict that will no doubt involve 
potential adversaries who have gone to school on American air 
power these last 17 years.
    Our Nation's existing and emerging competitors know that 
the combined power of America's joint military team, first and 
foremost, depends on air, space and cyber dominance. Potential 
opponents understand this awesome asymmetric advantage that the 
United States Air Force gives this country, so it is not 
surprising that many of them are developing and buying weapons 
that will put the air and space dominance we enjoy today at 
risk. Yet the air and space inventory America relies on today 
is largely what Congress appropriated 20 or 25 years ago.
    We won't choose where the next fight will start. We won't 
know for certain how far off this distant horizon is. What we 
do know is that the next fight will depend on the long arm of 
America's Air Force and that that long arm is becoming 
increasingly less capable over time. Ours is a tired and aging 
inventory that must be recapitalized and modernized to prepare 
for an uncertain, complex, and threatening future.
    Tomorrow's successes depend on our ability to defend the 
American homeland, to shape and influence events around the 
world, and to deter, dissuade, and defeat our country's 
enemies. The timelines associated with fielding such new 
capabilities preclude us from waiting until tomorrow to think 
about tomorrow.
    At the rate at which we get to the distant horizon, certain 
strategic surprises, such as successful antisatellite test 
shots, escalating nuclear efforts, continually outpace our 
estimates. We must therefore accelerate our efforts to build a 
21st century force with the required range, payload, speed, 
survivability, lethality, and precision.
    We must begin that today. This critical piece of the joint 
team won't change over the future.
    To ensure our ability to fulfill what we see as our roles 
and missions and to ensure our ability to dominate airspace and 
cyberspace, we have embarked on the biggest and most important 
recapitalization and modernization effort ever. This effort 
includes retiring old and obsolete aircraft, such as the C-5A, 
KC-135E, C-130E, U-2, B-52, and replacing them with fewer 
numbers of more capable systems. Our top five procurement 
priorities are a step in the right direction toward fielding 
these systems.
    We have also programmed for C-130Js and joint cargo 
aircraft, now the C-27, more unmanned aerial vehicles, and the 
F-22 fighters and F-35 fighters to fulfill our Nation's 
combatant commander requirements and to flesh out the full-
spectrum capabilities we expect for tomorrow.
    Mr. Chairman, we truly appreciate the committee's 
consistent support of goals and priorities, and for watching 
over the great people that wear the uniform of the American 
military. We look forward to partnering with this committee in 
the future to guarantee that America's global vigilance, global 
reach, and global power remain intact.
    Mr. Chairman and distinguished members, we both look 
forward to your questions and your comments. Thank you, sir.
    [The joint prepared statement of General Moseley and 
Secretary Wynne can be found in the Appendix on page 55.]
    The Chairman. General, thank you very much.
    We are here to gather accurate information, and sometimes a 
``yes'' or ``no'' answer is far better than a dissertation on 
how to make a clock.
    So let me begin. Secretary Wynne, do you have too many 
people in the United States Air Force?
    Secretary Wynne. Sir, right now we cannot afford to have--
--
    The Chairman. Just give me a ``yes'' or ``no,'' and then 
explain, please.
    Let me ask it again. Do you have too many people in the 
United States Air Force?
    Secretary Wynne. We are continuing to decline, so the 
answer is ``yes.''
    The Chairman. All right.
    You wish to cut some 5,600 from the Air Force active duty? 
Is that correct?
    Secretary Wynne. We are constrained by the amount of money 
we have, sir, so we are in fact cutting those people.
    The Chairman. And you wish to cut some 7,700 from the Air 
Force Reserve. Is that correct?
    Secretary Wynne. I do not wish it. I would prefer not to.
    The Chairman. You are asking them; am I correct?
    Secretary Wynne. Yes, sir, you are correct.
    The Chairman. Mr. Saxton.
    Mr. Saxton. Let me just follow up on that question by 
asking this.
    What is it that causes you to visualize the need to make 
the cuts that the chairman was just talking about?
    Secretary Wynne. I tell airmen who ask me this very same 
question that the chairman asked me--I say, it is the duty of 
every airman to make sure that the future airmen are as capable 
and as confident to go to war for America as the airmen are 
today. One of the sacrifices we have to make is cutting force 
structure and trying to do more with less.
    The reason is because I foresee that we are just not going 
to get the resources to recapitalize at the rate we need to 
recapitalize. And I worry more to make sure that if there is 
only one pilot left, they have the best possible equipment that 
America can afford to give them.
    And that is the mission that we took three years ago--two 
years ago, really--when I became Secretary of the Air Force. It 
was as a former airman; it was not one that I looked forward to 
and certainly not one that I look forward to. And I confront 
that question at every air base that I go to.
    Mr. Saxton. I mentioned earlier that General Casey was here 
testifying a short time ago, and he indicated that in order to 
both modernize and repair equipment and to carry out all the 
other responsibilities in the Army, he simply didn't have 
enough money.
    Isn't that the case with the Air Force as well?
    Secretary Wynne. Yes, sir. We have summed it up by saying 
that we feel that the $20 billion per year is an approximate 
level where we could buy efficiently and we could also man 
efficiently across our Air Force.
    We are committed to managing the resources as best we can, 
and that is the reason we are embarked upon Air Force Smart 
Operations 21, which is a Lean Six Sigma, adopted from American 
industry; but it is an unpleasant reality that at some point we 
will be too small.
    Mr. Saxton. Now, Mr. Secretary, you just talked about 
managing the Air Force, and that is an important phrase. So 
your choices, again with regard to modernization, are to make 
some tough choices; and with regard to personnel, to make some 
tough choices--to balance the books, to reduce personnel. And I 
guess I would have to conclude that you don't really want to do 
that.
    Secretary Wynne. Sir, I do not really want to do that, but 
I believe that the budget pressures are forcing us to be a 
smaller Air Force, whether it starts with equipment or whether 
it starts with people.
    In the Air Force, we buy equipment and we man the equipment 
to the best of our ability. I would have to tell you that if I 
cannot buy new equipment, it doesn't do me any good to have 
people standing around on the ground; every airman or rifleman 
does not work in the end.
    Mr. Saxton. Mr. Secretary, in your opening statement--I 
wrote down several things that you had mentioned, and one was 
that we should not allow any production lines to close.
    Would you tell us specifically what you are referring to 
there?
    Secretary Wynne. The purpose of an air force is to fly 
airplanes. I worry about our industrial base. We currently have 
only one large transport line in America. We currently have 
active only one fifth generation fighter line. We currently 
have active only one medium transport line in America.
    Mr. Saxton. And what would happen--let us talk about the 
strategic line, the transport line; what would happen if the C-
17 line closed?
    Secretary Wynne. We would probably--under management, we 
would put those tools in as close to ready storage as we could. 
We would have to take an order approximately three and a half 
years out, because you have to go to a forging mill in order to 
restart the line.
    I have got to have forgings for the landing gear, and so 
since I am not storing any forgings, I would probably be using 
what I could of my spares line. And it would be three and a 
half to four years to restart that line.
    Mr. Saxton. And how much money?
    Secretary Wynne. I haven't estimated it, sir, but the last 
time I looked, it was close to--in the 10s, it wasn't in the 
single digit billions.
    Mr. Saxton. So additional money to an Air Force that is 
already strapped and trying to balance the books by reducing 
the size of the force?
    Secretary Wynne. That is right.
    Mr. Saxton. Recently I had the opportunity to join General 
Light in bringing the first KC-135R model to McGuire Air Force 
Base. As we taxied up to the tarmac, I counted 17 KC-135E 
models parked on the tarmac. And I said to General Light, where 
are you going to park these newer R models? And he said, I 
don't know, but we are going to figure that out.
    What is the problem?
    Secretary Wynne. The problem is that we have 85 active KC-
135Es. We only have 40 that can fly. Of those 40, more than 13 
are being stood down locally by their commanders because they 
don't want to fly them. They break too often and they suck 
their maintenance out.
    So what we would like to do is get the right to retire KC-
135Es, to transfer the Rs into their slots and, effectively, 
better manage our fleet. We think we can use the crews that are 
currently assigned to KC-135Rs to effectively get more 
efficiency out of the KC-135R fleet.
    And, of course, we need desperately to start that.
    Mr. Saxton. Isn't it true that Congress legislated in such 
a way that you can't retire those old airplanes that are 
costing us money to sit on the tarmac and take up space that we 
need for other airplanes?
    Secretary Wynne. Yes, sir. And further requirements, we 
have to have an assigned maintenance crew to go down and start 
the engines every so often, even if the planes never leave the 
ground.
    Mr. Saxton. Now, isn't there a retirement problem with 
other aircraft in your inventory, such as the C-5?
    Secretary Wynne. We are restricted on the C-5 to manage 
that fleet. We are attempting, as you know, to increase the 
capability of that fleet. We know the reticence of the 
contractor is, the A model aircraft are so old that when they 
open the aircraft up they are afraid to bid a fixed price on 
the repair job because they are afraid it may have, in an 
aging, geriatric sense, ``cancer'' in the aircraft. If it does, 
it will cost them and us a lot more money. This is the essence 
of the problem.
    The B model aircraft, I believe, are a lot more accepted--
and are a lot younger, by the way--to make the transition. So, 
yes, sir, we are constrained there.
    And we are also constrained on C-130Es. We would like to 
remove the 1,000 requirement for the E models that are at A 
mark already, and retire another tranche of C-130Es. I remember 
when I was an officer in 1973, the E model was the one that I 
worked on as--when I was in the Air Force.
    Mr. Saxton. All right.
    Mr. Secretary, back to the C-5 issue again. Isn't it true 
that your--meaning the Air Force, some years ago--original idea 
on the C-5 modernization program was to do just the B models? 
Is that correct?
    Secretary Wynne. I believe so.
    Mr. Saxton. Right. And wasn't it Congress that did two 
things: actually put the retirement restriction in law relative 
to C-5A and B models, and required the Air Force to study and 
do a test on whether or not it would be possible to modernize--
or feasible, let me put it that way--to modernize the C-5A 
older fleet?
    We did those two things, didn't we?
    Secretary Wynne. I believe you did, yes, sir.
    Mr. Saxton. Yes, sir. And at the outset we thought the cost 
of doing that would be somewhere between $5 and $8 billion, and 
you have recently sent out a message that the Nunn-McCurdy 
breach has been reached. And, in fact, the $5 to $8 billion has 
increased to almost to $18 billion; is that correct?
    Secretary Wynne. We are examining what the extent is, and I 
think the difference is between 12 and 17, yes, sir.
    Mr. Saxton. Twelve and 17; I saw a number of 17.8 billion. 
All right.
    And if you had your druthers, and the legislation weren't 
written the way the--the statutes weren't written the way they 
are written----
    Secretary Wynne. I believe we and the contractor----
    Mr. Saxton. How would you manage the C-5, C-17 fleet? And I 
remind you that just a minute ago you said it would be a bad 
idea to close the C-17 line.
    Secretary Wynne. I do believe it would be a bad idea to 
allow the line to close. It is one idea, just like the 
reduction of force structure that I am confronted with. And I 
am confronted with it because I can't afford to put in my 
budget more C-17s.
    To your question, we look at the C-5Bs as great airplanes. 
We would like to see them extended. We have some C-5As that we 
think we should change and aircraft modernization program (AMP) 
them, and we can fly them in America for outsized cargo 
locally; we would just not take them overseas.
    I will tell you that the Navy has already rejected the use 
of C-5s, and they have requested Antonov airplanes. We have 
flown over 200,000 pounds of cargo with Antonov airplanes, and 
the Antonov airplane fleet is doing very well. I believe the 
line may still be open over in Russia.
    We are now, by the way, sharing the mission of flying mine 
resistant ambush protected vehicles (MRAPs) over to Iraq 
between C-17s and Antonov airplanes. I think it is a good use 
of the commercial, but it is an indication--if you will, a 
large arrow. That basically says that was--300 units of that 
was prescribed in the 2005 Mobility Capabilities Study (MCS-05) 
that only talked about the American fleet. Did it truly 
consider that we would be supplying war supplies with Russian-
made Antonov airplanes? I don't know. I do think it is a good 
answer, given the state of the fleet that they have.
    Mr. Saxton. Mr. Chairman, I have taken more than my amount 
of allotted time, and I thank you for giving us that 
flexibility.
    I must say that I heard something that I wasn't fully aware 
of, that we are using big Russian planes to fly materiel to 
theater because our C-5 fleet is not capable of carrying out 
that mission and we don't have enough C-17s to substitute. So I 
think that makes a great point.
    I would just say, Mr. Chairman, in conclusion, that our 
statutes have put handcuffs on some of the services; and in 
this case we have tied up and gagged the Air Force--not gagged, 
I guess, but we have tied up the Air Force on their capability 
to manage their fleet. We have got an opportunity in this 
conference to address that issue, and I hope we will.
    Thank you, Mr. Chairman.
    The Chairman. An observation, Mr. Secretary, that 
everything of which you speak, whether it be people or planes 
or equipment, is budget driven. I have heard no word about 
strategic thought or where the Air Force should be in a 
strategic position for our country. So I would take it from 
your testimony that everything is budget driven in the Air 
Force, as opposed to giving thought to where this fits into the 
defense and security of our Nation.
    Mr. Ortiz.
    Mr. Ortiz. Thank you, Mr. Chairman.
    Mr. Secretary, Chief, it is good to see you this morning. 
And by the questioning from my colleagues, I think that we do 
have serious, serious problems. And I can assure you that we 
want to work with you and see how we can--it looks like we are 
going to have to come from bottoms up to correct what we need 
to correct. And they were very serious questions.
    But--I wish I could continue in that line of questioning, 
but because my chairman mentioned--and my good friend, Mr. 
Saxton, we are meeting with the Senate conferees at this time; 
and we had a meeting with them yesterday.
    So I was going to ask, General Moseley, the Senate defense 
authorization bill would mandate that the Air Force conduct a 
fee-for-service pilot program for in-flight refueling. Now, 
what challenges would you see with fee-for-service air 
refueling, and how would the Senate's pilot program affect the 
tanker flying hours program?
    And it goes much further into other things now, the 
criteria for number of hours, the number of contractors, and 
the number of aircraft. You know what I am talking about. And 
we want to be sure that when we continue to meet with the 
Senate, this conference panel, that we do the right thing.
    So if you could maybe enlighten me as to how this is going 
to have an impact on you and the Air Force.
    Secretary Wynne. We worry on a couple of levels, and I 
would like the Chief to comment.
    We worry on a level that it first uses resources. We don't 
know that it is an imprudent use of resources. The Navy does do 
fee-for-service tanking. We worry that it might be used as a 
tool to delay the KC-X program. We worry that I still have an 
aging fleet of tankers, and the first time to do night 
refueling is not when you are going to war. I worry, therefore, 
about training our crews and not having a commercial crew. I 
worry about how far do we go into the Blackwater world.
    Chief.
    General Moseley. Congressman, thanks for that question. The 
notion of conducting a proof-of-concept test is a useful 
opportunity. I think we should do that. I think we should look 
at these details and see what opportunities are there.
    My concern is, we are given guidance to conduct something 
more than a proof of concept that takes us into an operational 
area. That creates some concerns about assignment and training 
of air crew maintainers, about cost for this, about passing the 
operations and maintenance (O&M) cost through a contract, about 
where do our people live, how do we operate, how do we deploy, 
how do we fight.
    It is one thing to look at a proof of concept, which we 
welcome; it is another to take an immediate leap to an 
operational template that drives us into a force structure 
discussion before we know the impacts after the proof of 
concept.
    So, Congressman, I would offer, the test is a good idea. 
The ability to look at this is a good idea. Then we need some 
time to look at the operational impacts and the magnitude of a 
contracting scheme or a contracting template that may or may 
not have true operational impact on the way that we provide 
aerial refueling to the joint team and the combatant 
commanders.
    And how would we deploy these, or not? How many would we 
look at? What type? What is the technology presented? Is it a 
boom or is it a basket? If it is a boom, my understanding the 
booms have not been developed yet. So there are some things to 
think about.
    So the proof of concept, I believe, is a good idea. I think 
the two of us, we would welcome that. But to go straight from 
that into an operational construct, I think, is premature.
    Mr. Ortiz. The way I feel, I think that we need to give you 
some flexibility and see how it works.
    Now, I have nothing against contractors. I mean, you know, 
you contract when it makes sense. But I know we have Federal 
Express and we have other contractors, but I would much 
rather--and this is my own personal opinion--see it in house, 
because you have better control.
    You know, just like you stated, where are they going to 
site--where are they going to live, the workers?
    I have had experiences with contractors. Sometimes--in 
fact, not too long ago, we had flight training in Florida where 
the instructors went on strike, and for about two, three months 
they couldn't teach our pilots how to fly.
    I mean, it is a matter of when somebody can strike, would 
be different than when you have control over the people working 
for you?
    And I don't want to take too much time, but I know maybe 
there will be a second round, Mr. Chairman.
    General Moseley. Congressman, there is another piece of 
this that I don't know. And the details that I have seen of the 
concept would not be as onerous on the overall operation. But I 
don't know what the final details are, and I don't know--when 
you look at a KC-135 or a KC-10 performing a refueling mission, 
that is an operational training mission for the tanker crew as 
well as for the receiving crew. So I don't know what this would 
do to our overall training and our overall readiness rates in 
our tanker squadrons. So the first step is a proof of concept 
to see what this looks like and to see how we would apply this.
    I welcome that, but I am hesitant to buy into an 
operational construct immediately without the proof of concept. 
I don't know what that does to us until we can see the details.
    Mr. Ortiz. I agree with you.
    And, again, we will work with you. It is nice to see a 
fellow Texan with us this morning.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Terry Everett.
    Mr. Everett. Thank you, Mr. Chairman. I appreciate it.
    Mr. Secretary, General Moseley, thank you for being here 
today, and thank you for your service to our country. We are 
going to talk a lot today about hardware. But before we get 
there--I have some questions myself about hardware.
    Before we get there, I would like to talk about some things 
going on at the Air University down in Maxwell; and what the 
Air University would like is the authority to award a doctorate 
degree in strategic studies, a master of science in flight test 
engineering, and a master of science in airspace and 
cyberspace.
    Would you tell me what this means to the Air Force and also 
what it means to our professional men and women that have 
chosen to wear the uniform to serve this country?
    General Moseley. Congressman, thank you for that question, 
and thanks to the committee for helping us with this.
    In our tenure, we have asked Air University, the commander 
of Air University and Air Education and Training Command, to 
revitalize everything we can about Air University to be 
relevant in today's fight, to understand more about 
insurgencies and more about a global war on terror, but also to 
understand how to better take care of our people and prepare 
people for the future and to better gauge what the future may 
look like. So for Air University to be able to grant this 
degree is a big deal for us.
    But, sir, I would also tell you that this is, as one of our 
officers goes through the course of Command and Staff College 
in many of the schools, from Monterey to Navy, Marine, Army, 
and back to the School of Advanced Aerospace Studies, they have 
already done most of the course content that would allow us to 
accredit that degree.
    What we are really asking for is the ability to give 
credit, which is for the work already been done.
    I also want to be able to stress upon future officers the 
ability to see the horizon better. I want bigger thinkers. I 
want broader thinkers. I want more joint thinkers, more 
combined thinkers. And the ability to wrap this up and partner 
this inside Air University is a big deal for us for the future. 
It helps us get our arms around tomorrow. It helps us prepare 
ourselves for the bigger thinkers and the bigger thoughts and 
the uncertainty for tomorrow.
    So, sir, thanks for that question, and thanks for the 
opportunity to tell you this is a big deal for us. And we 
welcome the committee's help on making this happen.
    Mr. Everett. Well, thank you.
    You have testified that our tanker fleet, which we need--we 
have to have, we can't not have it--that it is about 44 years 
old. And I have a two- or three-part question on that.
    What is your current plan to retire these aircraft? Does 
your current acquisition plan for the KC-X, Y and Z tankers 
support the retirement plan? What is the current timing for the 
KC-X acquisition? Will there be any delays in that? And then 
what are the attributes and assessment criteria you are using 
to choose between the capabilities of the contenders for the 
KC-X?
    Secretary Wynne. Sir, one thing that is for sure is. We 
have 44-year-old tankers. One thing that is for sure is that 
some of those tankers will go to age 75 before we can retire 
them simply because of affordability, that we cannot afford the 
rate of growth. Even if we were to award today, we can forecast 
that they would be 75 years old.
    Our plan is to go ahead and put that program into action, 
retire the KC-135Es with the accession of the KC-X. And our 
plan then is to essentially prolong the best of the KC-135Rs 
until we can fully replace and amortize those.
    The KC-10s, as well, will look like they are going to span 
and work for another 20 to 25 years.
    We right now are treating both competitors with extreme 
fairness. All of the things that we have been through have 
augured for transparency and fairness in competition. We have 
done a very serious look at what they have done, and I still 
hope that we can, by January of next year, come to an agreement 
and award a KC-X contract. And that is where I am aimed.
    Mr. Everett. Did you say this year or next year?
    Secretary Wynne. 2008.
    Mr. Everett. 2008.
    General Moseley. Congressman, if I could follow up on the 
KC-135 challenge, Congressman Saxton saw those airplanes in 
McGuire.
    The KC-135Es that we have parked, every week we have to 
send a crew chief out and tug and tow the airplane a certain 
distance to be able to keep the tires from going flat. And 
every 25 or 30 days we have to taxi the airplane to an engine 
run stand and run the engines to keep it in a status as 
mandated by language.
    Our preference would be to be able to manage our own 
inventory and retire those airplanes so we don't spend manpower 
and time and money on these mandated status of these old 
airplanes.
    We have two locations that we are flying the E models, one 
at McGuire and one at Scott. Those are scheduled to come off of 
the books so that we don't have to do that. And our request to 
the Congress is to lift the restrictions on the XJ status and 
on the 1000 status so we don't have to spend that time and 
manpower and money on these airplanes that we don't fly.
    And we only fly the KC-135Es in the vicinity of the 
airfield for Operation Noble Eagle and the Northeast Tanker 
Task Force. We don't deploy them. We can't take them into 
theater. We can't lift the weight. We can't operate at the 
temperatures with this airplane. And by the spring of 2010--all 
of them are now grounded because of the pylons and the 
structure, and so we are asking again for the Congress to 
please give us the authority to manage our inventory so we 
don't waste crew chiefs and manpower and time and money on 
these airplanes.
    Mr. Everett. Thank you, Mr. Chairman.
    The Chairman. It is good to hear General Moseley speak 
about the Air University and teaching people to be big 
thinkers, strategic thinkers. It would have been helpful had we 
had a bit of your strategic thought through the Air Force eyes 
this morning, as opposed to budget cuts from people and budget 
constraints on your airframes.
    The Air Force fits into a strategic mold for our entire 
national security, and I would hope that your testimony is 
based upon solid strategic thought, which we haven't received 
this morning. And I know the gnawing pressure on you is 
budgetary, but it would help for us to get a picture as to why 
you are making these decisions based upon solid strategy.
    Dr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman. I want to ask a couple 
of questions.
    First, maybe I will ask you, General Moseley, as you look 
at what is going on around the world and the tremendous 
responsibility you have now in terms of moving people and 
personnel into Afghanistan, Iraq, and those kind of theatres, I 
will ask you the General Casey question. If we have, you know, 
two weeks from now some major event that is going to require 
military action somewhere in the Far East, somewhere in the 
Pacific area--whether you talk about North Korea coming across 
over the border or something over Taiwan, a major event--do you 
have the ability now, from the transportation perspective, to 
move the kinds of personnel and equipment that would be 
required in those kinds of events and still maintain your 
current responsibilities in Iraq and Afghanistan?
    General Moseley. Congressman, it would be a challenge. I 
would be remiss in telling you we couldn't do it. I mean, we 
would break all the rules, we would break all the established 
procedures to be able to deliver to Admiral Keating or General 
Bell the required materiel and people on the peninsula or in 
the Pacific.
    Some of the airplanes that we have, the C-5As, there are a 
number of them that are less reliable than others. But the 
crews that fly them and the maintainers that operate them at 
those bases, whether they are active, Guard, or Reserves, spend 
their lives trying to get those airplanes to do what you are 
asking.
    So it is not because the people don't try. Some of it is 
just the age of the hardware and the capability attendant with 
that design.
    Dr. Snyder. But when you say it is a challenge, does that 
mean you lie awake at night thinking it is going to take 
longer, it will take you more time? You are at risk of its 
taking, instead of several weeks, several months, or instead of 
several days, several weeks? Or you may get planes out there 
that break down, and you won't have the ability to get them up 
and moving, that the whole----
    General Moseley. Sir, you have captured a part of my lie-
awake-at-night concerns, and that is that the capacity and the 
sustainability and the reliability of some of these older 
platforms, both the tankers and the C-5s and some of the C130s, 
to be able do that.
    And as Congressman Saxton mentioned, we have used the C-17s 
at a much higher rate because they are so much more reliable. 
We are operating C-17s now as we used to operate C-130s.
    Our C-130 inventory that you are so familiar with, the H 
models and the J models, are as reliable as any other airplane. 
The E models are a challenge for us.
    Dr. Snyder. I just wanted to get you to talk about that 
overall view.
    General Moseley. Yes, sir.
    Dr. Snyder. Because I think that, you know, you all have a 
can-do spirit, as does the rest of the military, and you will 
do whatever it takes to get the mission done.
    The problem, I think, for us as a country is, will it take 
you longer and at greater risk and potentially more loss of 
lives because of the ability or lack of ability to move things 
as quickly as you would like to under the best case scenario? 
And that is the concern.
    I want to ask--to pick on Mr. Saxton; my only criticism of 
what Mr. Saxton said this morning is, he didn't have his 
microphone pulled in close enough, and I had a little trouble 
hearing, but I appreciate him taking the time and fleshing out 
some of these issues.
    I don't understand--as you know, I have a C-130 base in my 
district, and I guess it is to my advantage, having C-130Es 
sitting out there that have to be started up and maintained, 
but I don't see it. I mean, I just don't understand why we have 
congressional legal language that prohibits you from, in your 
words, ``managing your own fleet.''
    I guess the argument is--in fact, I appreciate in your-
all's joint written statement--it is only six pages long, but 
you have a significant couple paragraphs in here talking about 
just some of the need to retire some of these E models. I guess 
the argument would be the fear that you are going to go in--
that is, the Air Force, if you had the ability to completely 
manage your fleet, you are going to overretire, you are going 
to overscrap, something will happen three months from now that 
you will say, Oops, we retired too many, we scrapped too many.
    Respond to that issue or share with me what you think the 
arguments are that you are hearing, why we are not giving you 
the authority to do that.
    General Moseley. Sir, I would offer to you that the fear 
that we would overretire is a bit shallow, because we still 
have the requirements to meet with U.S. Transportation Command 
and the theater commanders.
    And so, for instance, at Ramstein, I am told by our 
commander in Germany that we have one C-130E that is so broken 
we can't operate it, and we have four so restricted that we 
can't lift any cargo other than the crew.
    Dr. Snyder. Don't you have some now sitting on tarmacs that 
are in such shape if you retire them you won't be able to fly 
them out of there?
    General Moseley. The one in Ramstein is going to be a 
challenge to get out because we can't fly it, I am told. But 
there are others in that same status.
    And so my desire would be, with the commanders in the 
field, to be able to retire the airplanes before we get to a 
safety-of-flight issue which, of course, you know we will get 
to at some point and be able to recapitalize these.
    So I suspect some of the fear in the Congress is that we 
will overretire, and we don't have the budget authority or the 
financing or we don't have the programs in place to replace 
those particular airplanes. And, of course, we work that very 
hard with the Guard, Reserve, and the active components to make 
sure we don't disadvantage a unit.
    Dr. Snyder. But spending money to keep planes that are not 
going to be used isn't helpful.
    Mr. Chairman, I wanted to add to what Mr. Saxton said, that 
I hope that at conference--we have language that deals with the 
C-130E issue, at least we address that in our bill; and I hope 
the House conferees will really work with our Senate partners 
to explain to them where we are coming from, because I think it 
is an important issue of cost savings.
    It saves money. Literally, tens of millions of dollars can 
be saved annually if we will do this.
    Mr. Ortiz [presiding]. I agree with the gentleman. Now that 
we are in conference, maybe we can look at all these problems 
that we have.
    And now Mr. Hayes.
    Mr. Hayes. Thank you, Mr. Chairman. We had a very 
productive conference meeting yesterday, as you well remember; 
and thank you for bringing up the fee-for-service program.
    General Moseley, if we could follow up on the fee-for-
service for just a moment, very specifically, you and I have 
talked at great length, as have other very capable members of 
your staff. You have stated this morning already that fee-for-
service presents a potential cost-saving, efficiency-producing 
option. Tell us the best way to do that.
    Based on the conference yesterday, we don't need language 
from either side--the House doesn't do it, the other body 
does--telling you what to do and how to do it. Tell us how that 
should be for the best effect of the Air Force in the country.
    General Moseley. Sir, my request to the committees would be 
to give us the opportunity to run a proof of concept, to 
understand what this really means. And then from that, we can 
develop an operational construct to know how we would fit that. 
Would we fit it into only training missions? Would we fit it 
into only unique special missions? How would that impact our 
assigning of squadrons, our manning of squadrons? How would 
that impact our O&M accounts? How would that impact our 
deployability? How would we deploy or not deploy? How would 
this fit.
    Mr. Hayes. No disrespect, Chairman Skelton. You have made 
my point. You are the ones to do it. Mention also that you are 
in agreement that this in no way affects our need to go ahead 
with the K-CX and retirement of these incredibly costly 
airplanes. And just for a quick refresher, those here who don't 
fly, one of the most expensive things you do is to start a jet 
engine. That is the maximum amount of heat, and it costs you a 
ton of money, but you have to start it.
    Well, anyway, I made the point for you. Now, let me jump 
over--well, go ahead and finish the service--this is not 
interrupting what we need to do for the future of the Air 
Force.
    General Moseley. No, sir. This is a useful look at an 
opportunity or an option. We embrace that. It cannot be a 
negative influence on fielding of K-CX because this will not 
provide the capacity for the jet tankers that we need for the 
joint team or the combatant commanders. We have to proceed with 
the number one procurement priority of the Air Force, which is 
the K-CX.
    Mr. Hayes. Absolutely. And I hope the other body is 
listening. It is very, very important that we do all aspects. 
And as you and I talk about it both as members of the Air Force 
and legislature, the practical matter--and you all, for the 
benefit of the Air Force and the military, raise the proper 
concerns and I am confident that you are addressing them fully. 
Joint cargo aircraft, there seems to be a little confusion. You 
and I have talked about this. The portion that goes to the 
Army, you are still in support of that concept, correct?
    General Moseley. Absolutely.
    Mr. Hayes. All right. There seems to be another train of 
thought out there that DOD or somebody wants to change that and 
give it all to the Air Force. That is incorrect?
    General Moseley. Sir, General Casey and I have had several 
conversations and we are working our way through this, chief to 
chief. There is still a roles and missions issue about 
intratheater airlift and about how intratheater airlift is 
conducted for the joint team. That piece is yet to be 
discussed. But the programmatic piece of fielding the C-27 in 
the Army, the Air Force, the National Guard or the Air National 
Guard, I am a big believer in this and I think there is a 
requirement for about 125 airplanes.
    Mr. Hayes. Okay. So you very clearly said, or I heard you 
say that you want the Army to have those aircraft as we have 
outlined it, and the last tactical mile is what you and General 
Casey are going to work out in theory. Is that sort of what we 
are saying?
    General Moseley. Sir, the last tactical mile is an 
interesting notion, because I believe in the intratheater 
airlift business. The last tactical mile also belongs to the 
air component, whether it is joint precision airdrop or whether 
it is a C-130 or whether it is a C-27. That is the discussion 
that General Casey and I will continue to have. But I do 
believe this is an intact program and I do believe that this is 
a useful program for the National Guard, the Air National 
Guard, the Army and the Air Force. Where the program ends up 
living and what has the program oversight and intratheater 
airlift, we are working our way through that, sir.
    Mr. Hayes. Okay. I am not 100 percent clear, and I think 
you are saying that the Army has that capability now with 
helicopters. It has it with old Sherpa and aircraft that are 
even older than the tanker fleet. So this needs to be worked 
out so that they have that capability where a fixed wing is a 
far better instrument than a rotor wing aircraft to provide 
that flexibility for the Army, and you and General Casey are 
going to work that out.
    General Moseley. Sir, absolutely. The defining of the 
requirement for the delivery of materiel lives inside the land 
component and air components of a combatant commander. And so 
how intratheater airlift works and how things and people are 
delivered lives inside that joint structure. I believe that 
this airplane is useful and I believe we should buy this, and I 
believe the delivery schedules with the units that we have 
announced that happen to be Army Guard units first, we should 
continue with that delivery and with that funding.
    Mr. Hayes. Mr. Chairman, that gets me for now. I wanted to 
try to help the other body understand the Air Force.
    Mr. Ortiz [presiding]. I think it would be good if we could 
get our staff together before we go to the next conference 
meeting so that they can go ahead--they know what the needs are 
and they can continue to meet with their staff. Like I said 
this morning, we have huge, huge problems. And some of this you 
can do on your own. But if you don't have the money and if you 
don't have the blessings from above, there is not much that you 
can do.
    Mr. Hayes. Mr. Chairman, we had that preliminary meeting 
after we finished the conference the other day and it was--they 
were listening. I don't know how well they processed it. But I 
think clarification provided by General Moseley, Secretary 
Wynne, yourself, and Chairman Skelton this morning should be 
very helpful as we follow up. I will call in Ms. Tauscher if we 
need reinforcements.
    Mr. Ortiz. Sir, I agree with your statements and I hope 
that we can get our stuff together and start working on this so 
we can get with the oversight on the Senate side and start 
working on this so we can try to see how we can help you. Mr. 
Courtney.
    Mr. Courtney. Thank you, Mr. Chairman. I just want to 
follow up on Congressman Hayes' questions on the joint cargo 
aircraft. The present arrangement operates under a memorandum 
of agreement between the Army and the Air Force; is that 
correct?
    General Moseley. Correct.
    Mr. Courtney. Okay. And obviously the Senate passed 
language which would change that arrangement by statute at a 
point where it is clear, just from your testimony, you have not 
really completed your discussions with General Casey; is that 
correct?
    General Moseley. Sir, we have had several discussions, but 
not come to closure. I believe what I am seeing in the proposed 
language is the notion that the Air Force does intratheater 
lift. We spend our lifetime looking at intratheater lift and 
delivering people and services, whether it is a C-130 or in 
this case a C-27 or a C-17. So I believe--I have not been 
asked, nor have I talked to them. But I believe that is the 
genesis of the language in the other committee.
    Mr. Courtney. And that is fine. And you may be absolutely 
right that that belongs in the Air Force. The problem I have is 
that Congress is jumping the gun by inserting language without, 
in my knowledge anyway, a public hearing even on this issue. 
And I think you know that the ripple effect in terms of the 
disclosure of the language from the Senate has caused great 
consternation out there because this program has proceeded 
under the memorandum of agreement that there has been staffing 
on the Army side that has not been matched by the Air Force, 
and there are people who are very concerned about whether or 
not it is going to push back the planning and the 
implementation of the JCA program.
    Again, this is not about the Air Force as far as I am 
concerned. I think it is about the Congress jumping the gun 
with a process--I am a freshman. I am brand new. I was in the 
State legislature, though, for, eight years and it always 
seemed like unless there was an emergency before you act, you 
actually have a hearing and you discuss it and you have a real 
exchange and dialogue on any issue before you proceed.
    General Moseley. Sir, could I take a bit of issue with you 
on the notion that the Air Force has not been involved in this? 
We have been involved in this at the very beginning in the 
joint program and we understand how to field airplanes and buy 
airplanes and operate airplanes. So the notion that there would 
be a delay, or the notion that it would cost more, or the 
notion that there would be a disruption, I don't buy that. But 
General Casey and I have not had a chance to sit down and have 
this discussion that you are talking about.
    Mr. Courtney. To me that really is the bottom line, which 
is that that should happen first before Congress proceeds with 
changing the status quo. And I appreciate your answers because 
that sort of helps frame sort of where we are in the process 
today, right now.
    And I just wanted to go back to the point that I was making 
because you did respond to it, which is the question of how the 
JCA program has been proceeding; because the Army, again, it 
appears that certainly since the agreement was signed, they 
have staffed this program to a greater extent than the Air 
Force right now. Maybe you can help with that.
    General Moseley. Sir, I will disagree. This is a joint 
program. We have had people in the program office. We 
understand how to build and operate and fly airplanes. I would 
offer to you that I disagree with the notion that there would 
be any disruption or delay or any impact on the program. I just 
don't agree with that. But, again, General Casey and I haven't 
had a chance to talk about this. And, sir, this is approaching 
the roles and missions issue about who does airlift.
    Mr. Courtney. And it does. And obviously this triggered a 
great response, pointing out the fact that the Army has been 
involved in this for a long time and that it is a change that 
the Senate has proposed a course of action that has been in 
existence for an awful long time. Again, to me this is about 
the process, and I don't see an emergency here that says that 
we should go forward without having this thoroughly discussed 
so that everybody is on the same page. And there is a lot of 
confidence out there because there are National Guard 
associations, Governors out there that have erupted since the 
knowledge of this language was disclosed. And I don't think 
that is fair to them. I just don't think Congress should 
surprise people who have been acting in reliance on a system 
and a memorandum agreement that has been in place for at least 
a couple of years.
    I don't know if, Secretary Wynne, you want to respond to 
that at all.
    Secretary Wynne. Sir, I was just going to say that the Army 
was very collegial in accepting the requirements that we 
needed. This is not called the joint cargo aircraft because it 
is a single op.
    Mr. Courtney. Right. But what the Senate is proposing to do 
is take the joint out of the----
    Secretary Wynne. The Senate recalls in years past, because 
you all are the memory for the Department of Defense because 
we--people like me come and go in the positions that we have. 
It is an honor to serve, but we understand it is a relatively 
short time. You may remember when the Army refused to take the 
Sherpas and they had to write legislation to force them to take 
it. That is what they remember.
    General Moseley. Sir, I would also offer we have both been 
on record and I have met with a variety of Governors to say the 
United States Air Force is committed to this for homeland 
security, homeland defense, for a Governors' mission, for the 
National Guard, for the Air National Guard. There is no walking 
away from this requirement.
    Mr. Courtney. I appreciate that. What I think is of 
concern, though, is frankly the way this process has moved. I 
mean, we have not given the Governors a fair chance to come to 
Washington and actually share what their response is to that. I 
am not saying they wouldn't necessarily agree with you. I mean, 
what we have heard this morning is that you have tremendous 
stresses and strain, just like the other branches that we have 
had hearings on.
    I would just humbly suggest again, as somebody who doesn't 
even come close to your background, that taking on this issue 
with the process that has been employed by the Senate is not 
good for your situation in terms of the huge challenges that 
face you. I think we want everybody working together and the 
way this process has occurred, it is--it really has not created 
that kind of confidence for a lot of people out there who want 
to be your advocates and cheerleaders.
    General Moseley. But one last offering to you. The airlift 
and intratheater airlift is a core competency of the United 
States Air Force. That is what we do for the combatant 
commander for the Army, for the Marines, for the Navy, for the 
Special Ops. So I suspect we are looking now at the beginnings 
of roles and missions discussions because of limited resources 
and limited programs. I suspect that is where this is beginning 
to swirl. That is the piece that General Casey and I--that and 
the Unmanned Aerial Vehicles (UAVs) and C-27s are the things 
General Casey and I will have a chance to begin to work 
through.
    Mr. Courtney. And I look forward to that outcome. But it 
shouldn't happen in a conference committee behind closed doors. 
And I will get off my soapbox. Thank you, Mr. Chairman.
    Mr. Ortiz. Thank you. Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman. General and Mr. 
Secretary, thank you for coming this morning. Can we talk some 
about the CSAR-X program and kind of bring us up to speed or 
update to date on where that is? We have had a couple of 
protests on the awarding thing that the Government 
Accountability Office (GAO) worked through. And can you talk to 
us about funding? We have got, I think, $280 million requested 
in this year's budget for research, design, test, and 
evaluation (RDT&E). Where is that on the overall original plan, 
and is it more or less? Give us your thoughts on the overall 
procurement process for this aircraft as well as kind of where 
we go from today.
    Secretary Wynne. As I understand it, the team released the 
draft amendment 5 yesterday, where we have got to give the 
teams, the contractor teams, about 21 to 30 days to take a look 
at it and get their feelings back on it and then we'll turn it 
around and deliver it to them, so we are looking forward to 
delivering them in mid-November, the final amendment 5.
    I think we are going to give them probably 60 days to turn 
that around. So in January, I would anticipate that we could go 
through a review and probably by mid-February, which is about 
mid--the fiscal year we would award. Because the three programs 
are actually wrapped around helicopters that are essentially 
designed, we would anticipate that the contractors would be 
capable of expending the budget that we have asked for. You 
know, we regret the delay because our warfighters need the 
equipment, but that is kind of the timing I think you asked 
for, sir.
    Mr. Conaway. On the amendment 5, if some of the contractors 
believe the scope is too narrow, will that be addressed during 
this comments and response period that you are talking about?
    Secretary Wynne. That is exactly--we believe that we are 
attempting to comply with the GAO finding. And we think that 
that is the role that we need to play. And what this is, is 
this is an ongoing dispute that I think we need to sort out. 
And so we are asking each contractor to come on in and talk to 
us about it.
    Mr. Conaway. Thank you. Just the overall idea of managing 
your fleet, whether it is C-5s or C-130s or tankers, whatever 
it is, and in getting back a little bit to what the Chairman 
talked about earlier in terms of strategic, if you had a 
balance sheet of aircraft you currently have versus craft that 
you really need and want, could you give that to us and let us 
just look at that to see what those numbers would look like all 
the way--from the cargo aircraft all the way through the F-35 
and the F-22 as to kind of the--what should the Air Force 
capitalization look like if we weren't worried about budgetary 
concerns?
    General Moseley. Congressman, we have got that. In fact, 
yesterday I spent all day with our four-star major commanders 
and the senior staff, Air National Guard, the Reserve, and our 
acquisition people doing exactly what the Chairman asked about 
and what you asked about. We call that the planning force, 
which is the force that we plan against with the combatant 
commander's requirements. It has got each of the major 
portfolios: vigilance, reach, power. It has got each of the 
major systems. And it has got bed-down--not only how many, but 
where would they be based and how soon would we base them given 
the program force and the planning force, and that delta is the 
budget.
    Mr. Conaway. Each year we produce, or you produce, an 
unfunded wish list which we all sometimes think games get 
played with that. But could you also develop what the delta is 
between where we are right now in terms of costs--what would it 
cost us to get to that planned force that you would like to see 
in place, what is the capitalization cost on that?
    Secretary Wynne. Yes, sir. This should not be a surprise to 
you because I have been quite public about it. The Chairman 
made a couple of points and I would say that the difference 
between the planning force, which we think satisfies the grand 
strategy, and the program force, which is what the budget is 
constraining us to do, is a briefing that we have in fact taken 
internal to the building. I believe it is going to go to Office 
of Management and Budget (OMB), and I would tell you that is 
one that we feel like you should request and I think might 
satisfy both you and the Chairman's desires.
    Mr. Conaway. Okay. Well, I am not sure how that request 
thing works, but if the Chairman presents his request from the 
next-to-last Ranking Member on the committee, we would like to 
request that briefing.
    General Moseley. Congressman, that also includes the 
satellite systems, it includes all the air breathing systems, 
it includes all of the major design systems, whether they are 
tankers, cargo, intratheater lift, intertheater lift, the 
fighters, the unmanned vehicles. It is everything in there 
about how we meet the combatant commander's requirements.
    Mr. Conaway. Well, I would like to have that in a briefing 
setting which would be a little less formal than this. But I 
would love to get that information. Thank you, Mr. Chairman. I 
yield back.
    Mr. Ortiz. I think that is a good request. If we could 
maybe have a confidential briefing among some of you gentlemen 
so you could really come out and lay it down and tell us 
exactly what you think when it is convenient for you.
    General Moseley. Yes, sir. We would also like to include 
the Air National Guard and the Reserve in this, because 
everything that we have done, every new system that we are 
bringing on board, we are rolling that into an associate 
arrangement with the Guard and the Reserve. Yesterday, we had 
one of the TAGs with us in the session, as well as the director 
of the Guard--the Air Guard and Reserve. So nothing we do is 
without that total force flavor. So I would request if you ask 
us to do that, please allow us to bring Air National Guard and 
Reserve representation also.
    Mr. Ortiz. We'd like to do that. An example is the fires in 
California right now where they are having probably to borrow 
from other States, but that depletes not only the manpower but 
the equipment that is being used. So I think that is a good 
request if we can work on that and then just get among 
ourselves and see how we can address this. Mr. Sestak.
    Mr. Sestak. Thank you, sir. I have always looked at the Air 
Force as the most transformational of the services. You said it 
well in your testimony that you want to dominate not just the 
air, but the real new commons space in cyberspace. So if that 
is the strategic thrust, just go down one more level then on 
this--just to take one or two operational tenets that have been 
placed out here to which you responded.
    I have been taken with the Air Force that as they look at 
the F-35, that pilot flying back pushes a button and the 
maintainers know automatically what is wrong with that plane 
before it lands. Less manpower needed for maintenance.
    You have taken the future--for us in the future for 
unmanned air vehicles. Unmanned air vehicles. And the 
leadership you have shown, that aircraft don't have to go up 
all the time to do twos and twos or fours and fours, they can 
do it in these new flight simulators. So I have been taken how 
you have led over the years the fight within the Pentagon that 
actually the future is one where it should be less manpower-
intensive, not as your testimony says the lesser of two evils 
but exactly the right approach.
    And I bring that up because you say we have gone down since 
2001, six percent in our manpower, but yet now there are some 
numbers whether we really need as many. But to me that is 
really more of a symptom of this Iraqi war as the in-lieu-of 
(ILO) tasking comes about and your deployments has increased 30 
percent. Are you now telling me that the future is really 
better with more manpower? With all the attending health care 
costs, all the attendant, isn't what you have always preached 
over there less manpower-intensive, more technology is the 
future?
    General Moseley. Congressman, that is a great question. The 
ability to do with less people is a reality for us. The new 
systems require less maintenance.
    Mr. Sestak. A good reality, am I wrong?
    General Moseley. No, you are not wrong. The notion of how 
to do this business in the future with fewer of the most 
expensive of our resources, which are our treasured people, 
there is an opportunity to be smaller. No different than the 
Navy has done with the manning of their ships. But, sir, I 
would also tell you that the contemporary--or today's mission 
with the tasking has put a bit of a knot in our rope. With 
about 6,100 people deployed----
    Mr. Sestak. If I could interrupt you, because I don't have 
enough time. Can I buy off, then, that absent this war, you are 
on the right glide slope for manpower?
    General Moseley. Yes, sir. And our planning force that we 
talked about takes us through a force structure of 86 wings.
    Mr. Sestak. Thank you, General. Because then I can walk out 
of here saying decreasing manpower, not bad, if absent this 
war.
    Second question, if I could, General. I am sorry. I don't 
mean to be rolling. I just get 5 minutes and they usually shave 
30 seconds off the freshmen.
    Airlift experts do logistics, amateurs do tactics. You 
brought out the Antonov, whatever the Russian aircraft is. And 
you brought up Korea. Before everybody walks out of this 
hearing, isn't the real reality that we don't want the C-17s 
carrying everything over to Iraq? We consciously in sea and 
airlift want to commercialize a lot of that because it saves us 
money and doesn't wear our planes out. And in Korea's case, 
when we invoke civil reserve air fleet (CRAF), the civilian 
airlift that all our war planes call for--the only real strain 
on our lift is when you have two nearly simultaneous major 
contingencies--we are going to do okay for lift for Korea.
    General Moseley. But, sir, remember the CRAF is mostly 
people.
    Mr. Sestak. Yes, sir. If I could--and I should have put 
this out. We were told by Admiral Fallon when he departed the 
Pacific, that at this moment we cannot deploy Army units to 
help 30,000 service members in South Korea, because no one in 
the unit is ready to deploy, and the Air Force and the Navy 
will have to be the reinforcements. I think that is a bit bad, 
and that is the tragedy of this war and why we need that 
strategic redeployment from Iraq.
    That said, at this moment, there is no capability to deploy 
ground troops. So with CRAF, is it not true that we can really 
handle that situation from where we are today?
    General Moseley. Sir, I still at night worry about our 
strategic airlift and the ability to move things, equipment, 
bulk, outsized cargo, because a sizeable portion of our 
strategic airlifters are not as reliable on launch reliability 
or in commission rates than the others. The going to the 
contract option is not a bad idea, but it provides you no in-
depth capacity or indigenous capability to be able to do that 
under surge. And if you surge the system with some of the 
aircraft with low launch probabilities or end commission rates, 
you won't get there from here.
    Secretary Wynne. Congressman, you know, we stood up five 
National Guard squadrons to apply Predators so that they don't 
have to leave their home station. We are also thinking about 
relying on the National Guard heavily in our cyber command so 
they don't have to leave their home station. So what we are 
trying to do is to avoid deployments and avoid--reach forward 
where we can.
    But I would tell you that it is a chicken-and-an-egg thing. 
When you are desperate to figure out how to save money, you do 
interesting things to do that. And one of them is restructure 
and look at your manpower in a very interesting way, and we are 
looking at it. And it is overlayed with technology. There are 
no more operators. We use telephone routers, for example. So 
there are interesting ways to do it. I mean, I worry about it 
primarily when somebody tells me we are smaller than the Army 
Air Corps was, but we are more capable and we are more capable. 
We just need to continue our recapitalization.
    Mr. Sestak. Sir, if I could just close. There are two 
reasons for my questions. I don't think your answers are spot-
on. But I was taken by your testimony where you said as the 
Army now wants to increase, the Air Force needs to. But I never 
remember in the 1990's as the Army was going down, that the Air 
Force said we should come down commensurately.
    Second, with the Army asking for $70 billion for 92,000 
troops, 22 billion to reset, $6 billion for MILCON, $10 billion 
a year for wages, and now your $20 billion a year, and the Navy 
and Army hasn't even been here. Somehow this manpower issue and 
others and how we use civilian and fee-for-service really has 
to be an operational part of this.
    General Moseley. Congressman, remember for Desert Shield, 
Desert Storm, and at the peak of the Cold War when the Berlin 
Wall fell, the Air Force was over 600,000 people. On 1 October, 
we were 333,000 people. So we have come down as the 
commensurate forces have come down. As the Army grows and the 
Marines grow in regimental and brigade combat teams, remember, 
we have a large number of airmen that are living attendant 
inside those units. Our combat controllers, our combat weather, 
our combat com, our air-to-surface operational squadrons and 
groups, I mean, we live inside those units to provide air-to-
ground support to combatant forces. If the number of brigade 
combat teams goes up, we will have to go up in those particular 
elements.
    And that is another case that--another episode that General 
Casey and I are working. In fact, how big does that look, how 
many growth opportunities do we have for airmen to be inside 
those brigade combat teams? That is an unknown. I don't have 
that answer yet.
    Mr. Sestak. Thank you very much. As Mr. Secretary just 
said, this is a conundrum.
    Mr. Ortiz. The gentlelady from Virginia, Ms. Drake.
    Mrs. Drake. Thank you, Mr. Chairman.
    Secretary Wynne, General Moseley, thank you for being here. 
Both of you in your comments talked a lot about cyberspace. 
Certainly you know there is a great deal of interest here on 
that command, but the media reports different timelines. I 
wondered if you could tell us the timeline that the Air Force 
is working with and when you expect to know what benchmarks a 
specific locality would have to meet to be considered, and when 
do you expect to make a decision about where the cyber command 
will be sited?
    Secretary Wynne. I believe it is just finding its legs. And 
we have not established a process to answer the questions that 
you have. I think I have given them until year end to come up 
with a process to allow this to happen. So I would be jumping 
the gun if somebody said, if I were to pronounce timelines, 
because I don't know where the manpower will come from to do 
the evaluation to do it. But I will say that we are at an 
interim state and we will be following the process to determine 
what is the proper end state.
    Mrs. Drake. Thank you.
    General Moseley. There is a follow-on to that that gets to 
Congressman Sestak's question. In a normal major command, the 
staff is about 1,000, to 1,200 to 1,300 people just for the 
staff. As we look at standing up cyber command as a major 
command, we are having to redistribute amongst the major 
commands to find that manpower to do that, so it is not a plus-
up in total numbers of people. That takes some time because of 
the competencies we are looking for inside that cyber command. 
So that is a piece that we don't know yet.
    The other piece is you do an environmental assessment and 
environmental impact studies in a variety of locations. You 
want to do that right. That takes a number of months to be able 
to go out to the various locations and consolidate that 
material and then make judgments on data. So that is playing 
out.
    Secretary Wynne. But one of the things, just as Congressman 
Sestak says, as we look at cyber command, we are also looking 
at it being a virtual command. So the number of people is not 
going to be anywhere close to what we have in our classic major 
commands. In fact, so far, I think they have asked for about 
180 total people. And what we are going to do is rely on the 
out offices to essentially provide them command status via the 
Net, which is what they are. So we are putting some pressure on 
them to try to bring us better management techniques, given 
that they are a part of the New Age themselves. So that is 
another thing that I think you should take into account is that 
as we go down this road, we are hoping that this will help us 
limit some of the angst that is going on.
    Mrs. Drake. Thank you for that.
    I just wanted to ask one other thing quickly if I could. 
And that is in regards to the Joint Strike Fighter, how many 
the Air Force plans on procuring and if that is affordable. But 
my question really wraps around the F-22 and whether the 183 F-
22s, whether that executes our national strategy and whether 
the number of the Joint Strike Fighters, whether that is a 
block to the number of F-22s that we might need, and especially 
since the Navy and the Marines are buying Joint Strike Fighters 
too, whether Air Force focus should be on the F-22. I know 
there is not much time left. But thank you.
    Secretary Wynne. Let me start by saying with 1,763 F-35s, 
we want 381 that we have asked for in our planning force; 381 
F-22s. So far we have been authorized 183 F-22s. Nobody in Air 
Combat Command (ACC) has changed their requirement. The 
Chairman asked about strategy. You have one kind of strategy 
when you have 381 F-22s. You have another kind of strategy when 
you have 183. You have one kind of strategy when you have 1,763 
F-35s. You have another strategy when that purchase is 
stretched out over 25 years. So it is the rate of access of the 
airplanes.
    So right now what I have asked to do is at least bridge 
over till we actually have a working fifth generation F-35 line 
and at least allow me to get 20 additional F-22s. This is far 
below the 381. But it does allow me to begin to fill out some 
of my squadrons that are in fact in theaters that I worry 
about.
    General Moseley. Ma'am, the numbers of F-35s that the Air 
Force has programmed is 1,763. The number that the Navy and 
Marines have programmed is a number of about 600 or so, if I 
remember right. And please don't confuse the missions of each 
of these aircraft because they are completely different 
designs.
    The A model, which is the Air Force airplane, is designed 
to generate hundreds of sorties a day inside a theater to 
provide the throw-away in the striking capacity. The Marine 
airplane is designed to operate off ships and expeditionary 
places. The Navy airplane is a bigger and heavier airplane to 
operate off of a carrier. These are different-kind designs and 
different operational templates. So they are not mutually 
exchangeable for degrading the total numbers of aircraft in the 
program.
    Mrs. Drake. Thank you. Thank you, Mr. Chairman. I yield 
back.
    Mr. Ortiz. The gentlelady from California, Mrs. Tauscher.
    Ms. Tauscher. Thank you, Mr. Chairman.
    Secretary Wynne, General Moseley, welcome back. Good to see 
you again. I have a few issues that I want to kind of move 
through very smartly. As you know, my district is the home of 
Travis Air Force Base and the Air Mobility Command and we are 
very honored to have all of those folks in our district and 
want to thank you both for your service.
    And I think, Secretary Wynne, particularly at this time, 
having a man with your kind of background when we are dealing 
with all of these procurement issues and the strategic issues 
of how we get our airlift capabilities at least of one of the 
many things right, I think that you are the right man for the 
job.
    And General Moseley, let me tell you how impressed I am 
about how quickly and how effectively you moved out after the 
news of the tactical ferry incident, which was unacceptable and 
shocking to say the least, moved out. I think both General 
Newton and General Rehberg's reports have been of significant 
information to our--excuse me, sir. I can't see my witnesses. 
And I think that we have--really I think gotten a lot of candor 
from you. And I very much appreciate that, considering the 
import of that incident and how, as I said, shocking it was.
    I think the follow-on reports that the Secretary has asked 
for from both Larry Welch and from the intergovernmental review 
(IGR) are very good. Clearly we don't know everything. There is 
a lot more that we will get to know. I have introduced 
legislation that is a companion to Senator McCaskill's 
amendment that calls for an independent analysis of airlift 
requirements. And I am interested in understanding--we don't 
expect this report, which we think will go through the 
conference perhaps, to be available till February of 2009. But 
I think that the problem that we have is that there is no such 
thing as a red-headed stepchild in the services called the Air 
Force. We need to have an Air Force that not only has all of 
its capabilities, all of its capitalization, is looking forward 
and is fully manned and equipped, but this is a ``have to 
have'' and not a ``nice to have.''
    And I think that for many reasons, your testimony reflects 
a sense that we are suffering from priorities that came upon 
us, both IEF and OEF, but also because of the aging fleet. And 
I think that--I don't really have a question about it other 
than to say that I think that we need a lot more peeling back 
of the onion. I think we have to have much more of a strategic 
view of what exactly we are expecting, what we are going to 
need to have, what our capabilities are going to have to be, 
not only because of the aging fleet, but because of 
contingencies in other theaters.
    But also I think that--what we are also hearing is that we 
need some intraservice--joint requirements oversight council 
(JROC) perhaps talking, other things happening, that give us a 
better view. And what I would suggest and I would ask the 
Chairman, if he would concur, if we could have you back perhaps 
very early next year to have a much more strategic view. I know 
both of you think strategically. I know that you have--when I 
work from my subcommittee point of view on space and other 
parts of this, it is completely from a strategic point of view. 
But I do think that we need to go to the next round of 
understanding; for example, what the size of the strategic 
airlift needs to be, what do we do with an aging fleet that has 
all of these different demands? What do we do about fee-for-
service and is that the best cost-effective way for us to do 
this?
    You know, I am not happy about the fact that the Congress 
has had to add--I have helped lead the effort for the C-17s for 
the last couple of years that were not in the President's 
budget. I am also not happy that every time we have done that 
to keep that line not only warm but hot, we haven't gotten any 
cost savings. I always expected that if I kept the line warm, 
that I was going to see some cost savings. The price for coffee 
and a plane has not gone down. So we need to find a sweet spot 
in all of those areas.
    I will ask the Chairman to have you back as soon as we can 
when we come back next year. And once again, I appreciate both 
of your service. And if you have any comments, I am happy to 
hear them.
    General Moseley. Congresswoman, thank you for that. As you 
know, by having us spend time with you, and you know from 
having Travis in your district, we do things strategically. And 
these issues that we work, we begin from the top down. Now, 
whether that is how we teach ourselves, that is also how the 
Air Force has historically done business. We look at the global 
requirement from the combatant commanders and we begin to work 
down through the strategic, to the operational and tactical 
level.
    So the ability to operate on a global scale is what makes 
this Air Force unique from the other services, but also from 
any other service in any other country. There is no other 
service that has the access to a global set of activities, 
whether they are humanitarian relief, whether they are fires in 
Southern California right now, whether they are disaster 
relief, or whether they are targets or whether they are 
surveillance issues. That is just in our DNA code to approach 
this from the strategic level first. So we would welcome that 
opportunity.
    Secretary Wynne. Madam Congresswoman, it addresses the 
Chairman's view on strategy. And I believe if we could get the 
briefing on the planning force over to the committee, I think 
it would very much help answer his questions and yours as well.
    The Chairman. Thank you very much. You know, a while ago, 
General, you were speaking about the university and people 
thinking big. And you talked about your global 
responsibilities. This is a budget hearing. Don't you think we 
ought to have a basic understanding as to why you need fighters 
and how many? Why you need tankers, intercontinental ballistic 
missiles (ICBMs), bombers, et cetera and fit it into the whole 
picture and then talk about the budgets, that you can't get as 
many tankers as you want, dot, dot, dot and--we have to 
struggle with the strategic requirements. And it would be very, 
very helpful and why should we have to have a separate hearing 
for this, Mr. Secretary. I am sorry to----
    Secretary Wynne. Sir, I think there is----
    The Chairman. I am sorry to tell you I am disappointed, but 
we can have a budget hearing anytime. We need to know the 
strategic requirements to defend the national interest, and the 
Air Force in so many respects is the glue between all the other 
services. They can't get there but for you. They can't defend 
against so much but for you. You are the power projection. And 
where you fit into this whole scheme of strategy is so 
important, and that is why we should have benefit of that, and 
that is what I was hoping, Mr. Secretary, you would do this 
morning. Well, I won't belabor it.
    The gentleman from New Jersey, Mr. LoBiondo.
    Mr. LoBiondo. Thank you. Thank you, Mr. Chairman. I don't 
know if these mikes are on or not.
    The Chairman. Yes.
    Mr. LoBiondo. Well, thank you, Mr. Chairman and Mr. 
Secretary and General. Thank you for coming today.
    My questions I hope will address a very important element 
of the Air Force, the fighter fleet. We have had some 
discussions before, and I am deeply concerned not only for the 
ability of the Air National Guard fighter wings such as the 
177th in my district to perform in the war over there, but for 
their ability to protect the homeland in a vital air 
sovereignty alert mission. As I am sure you are well aware, the 
number of Class A accidents for F-16s has increased per year 
and has increased in recent years as the planes age.
    Potential for loss for life and property and maintenance 
costs increase with the age of the airframe. Age issues affect 
the Air National Guard heavily as the Air National Guard flies 
older planes such as the Block 30 F-16.
    As part of your September remarks, you stated that in the 
near future, conflicts with countries possessing newer Russian 
SAM systems, the F-15, 16 and 18, would not be able to 
participate in the fight over these countries. That knocks out 
every Air National Guard unit in the country from the 
warfighting half of their mission.
    The second half of the air sovereignty alert mission is 
equally bleak. The F-16s at the 177th are projected to run out 
of flight hours around 2012. Unless newer aircraft are 
procured, the 177th and many other air sovereignty alert 
missions, the units will be out of business protecting 
America's cities such as New York, Baltimore, Philadelphia, and 
Washington.
    My question, Mr. Secretary, as you noted in September, when 
the age of equipment reaches a certain point it means you are 
going out of business. It is simply a matter of time. I think, 
sir, that was essentially your quote. Is there a 
recapitalization plan for the Air National Guard fighters and 
will it be implemented in time to avoid having units such as 
the 177th with missions but without planes?
    Secretary Wynne. I started that whole conversation by 
saying when we went into Baghdad in 2003, we only took F-117s 
and B-2s. We actually restricted anybody else from going into 
the fight until 72 hours after the city had been opened, and we 
didn't put B-52s in until 10 days after. I hope those dates are 
correlated with my--the guy who ran the air war. But frankly, 
that tells me that as modernization happens in our enemies, 
yeah, we are going to--we are going to put behind us the fourth 
generation, and are wanting to invest in the fifth generation 
airplanes. And we feel very constrained by--as the Chairman has 
indicated, as we forecast the requirement for 381 F-22s and 
1,763 F-35s, we feel like that is a sufficient quantity to 
replace what we have now. And we have a bed-down plan through 
2025 to lay those in to all of the squadrons that deserve them.
    We haven't been flying F-15s for a very long time because 
we know that we cannot replace all of that, and they are very 
effective in areas where we have air dominance and where we 
have air superiority. So we feel like there is going to be an 
ongoing mission. And if you fly within the continental United 
States (CONUS) on an operational level, you need a little bit 
less, because this is U.S. sovereign airspace. So we feel like, 
yes, the National Guard is going to be playing a role for a 
long time to come.
    General Moseley. Congressman, let me add to that, sir. I 
would offer to you that our aggressor squadrons that we have 
right now and the Thunderbirds, the Air Force Jet Demonstration 
Squadron flies Block 30s. So this is not an issue of the Guard 
having something that the active doesn't have. We fly the same 
airplanes. And we are a total force.
    Yesterday, when we sat down and went through every single 
one of the road maps and potential bed-down locations and new 
equipage to get at the strategic setting that the Chairman is 
talking about--how many fighters do you need to do what and 
where should they be--we had a TAG invited and we had the 
international Guard on board and we showed the entire bed-down, 
whether it was Active, Guard, or Reserve.
    And, sir, when we fielded the F-22 first at Langley, that 
was a Guard-associated unit with Virginia. As we look at the 
next set of bed-downs for the F-22, there is Reserve units in--
Reserve or Guard in New Mexico, Reserve in Alaska, and there is 
a full Guard squadron in Hawaii.
    On the F-35 bed-downs, we are looking at immediate 
association with Guard and Reserve in every one of those units. 
So, sir, we are dead serious about the strategic setting of how 
many tactical fighters do you need, roughly 2,250, and how do 
you wrap up and imbed in that the Guard, Reserve, and inactive 
to make sure that you get absolute benefit from each of those 
aircraft in each of those locations?
    Mr. LoBiondo. Thank you, General. Just very quickly because 
I know my time is running out. I am aware of the so-called 
four-corners proposal for the transition of F-22s into the--
maybe I can get to you later, General. Thank you.
    The Chairman. Ms. Castor, please.
    Ms. Castor. Good morning, gentlemen. Across all of the 
services, all service members, men and women, are struggling 
now. Here we are in the fifth year of the war in Iraq, well 
into the fifth year, and servicemen and women are struggling 
with very lengthy war zone rotations, worn-out equipment. We 
have growing discipline problems and sometimes disjointed 
medical care when they return as wounded and injured veterans.
    And then for the Air Force, you add on top of that the 
challenges of the in-lieu assignments where members of the Air 
Force are assigned to tasks and missions that are outside of 
their training. I think you testified we are now up to well 
over 6,000; is that right?
    General Moseley. Sixty-one hundred today.
    Ms. Castor. Sixty-one hundred. And that trend has just 
continued to increase over the past year. Do you see any sign 
of that changing?
    General Moseley. Ma'am, there is actually 15,000 because 
you have people in training and in the pipeline. But you have 
got 6,100 deployed. Now, I will say that the Air Force is part 
of a joint team. And if there is a requirement for us to 
participate, we will do that.
    Ms. Castor. And I understand and I hear that from folks 
that serve in the Air Force, that they are proud to do that. 
But it comes at a cost. And I have heard estimates that it is 
costing us three times the amount of money that it does. Is 
that an accurate assessment?
    General Moseley. Ma'am, I don't know where that calculation 
came from. I would have to take that for the record and see----
    Ms. Castor. This was from a four-star general in the Air 
Force recently.
    General Moseley. I probably know him, if you have got his 
name there.
    Ms. Castor. I do. I do. He says it costs as much as three 
times when you consider the training, preparation, 
recertification for airmen being set down range, those just 
returned home and those preparing----
    General Moseley. Let me get the facts for you, ma'am.
    [The information referred to can be found in the Appendix 
beginning on page 69.]
    Ms. Castor. Because I would like to know how, if we can 
quantify that in dollars a little bit more, it costs three 
times more? What does that do?
    And now back to the Chairman's overriding concern and you 
stated it, that you are also concerned, as the new chairman of 
the Joint Chiefs of Staff is as he enters his new assignment 
with this strategic risk confronting this country because of 
the war in Iraq and the way it has played out. I imagine you 
have been involved in significant discussions on how that 
affects your strategic missions. I know the defense bill 
contains a new direction to examine the roles and missions.
    But what are the--if you can get back to the Chairman's 
point and point out to us how all of this informs you and what 
your general direction will be for strategic roles and missions 
and try to quantify it in dollars for us, but also especially 
noting the strategic risks that confronts this country.
    General Moseley. Ma'am, I would offer first that the Air 
Force has been in combat out there for 17 years. Since the 
deployment for Desert Shield/Desert Storm, the Air Force hasn't 
left the region. In fact, we flew 12 years in the no-fly zones, 
being shot at almost every day on top of Bosnia, Kosovo, then 
Afghanistan and Iraq. So our clock started in August of 1990 in 
the Middle East. And so our deployment schedule and our 
rotation schedule has been changed over time to adapt to that 
high tempo.
    We also understand that we will be there for a long time 
because the attributes of air and space power are the exact 
things that will be constant.
    Now, once the land component has other challenges and 
perhaps become smaller, you will always have a requirement for 
intelligence, surveillance, reconnaissance. You will always 
have a requirement for lift, for combat search and rescue, for 
strike. My prediction is the Air Force, with elements of the 
Navy and the Marines that fly, also will be there probably for 
another decade. We are prepared to do that. So the in-lieu-of 
tasking is one of those things that we are having to work very 
hard and take care of our people to make sure they are actually 
trained to do the things we ask them to do.
    Our red lines are that we don't send anybody into one of 
these mission sets that is not their competency. So we train 
them inside--whether security forces or civil engineering or 
intelligence--to do the things that we are asking them to do.
    But it is slightly different when you do it in this in-
lieu-of tasking than when they are assigned to an air 
expeditionary force. And that is the delta in training and that 
may be where the price that you referenced comes from. I will 
get those numbers for you.
    Ms. Castor. And how does it impact the growing global 
strategic risk? How does that focus in the CENTCOM area affect 
what we need to be doing around the world?
    Secretary Wynne. As we have been preparing for this 
conference, as well as over time, we have been assembling 
statistics that basically show we have a steady erosion in the 
operational readiness of our force structure. Recently we have 
had some erosion in our statistics for retention and for 
recruiting. We worry.
    Ms. Castor. Thank you.
    The Chairman. I thank the gentlelady. Mr. Jones from North 
Carolina.
    Mr. Jones. Mr. Chairman, thank you very much. And Secretary 
Wynne and General Moseley, it is always a pleasure. And thank 
you for your leadership for this Nation.
    Along the lines of what Ms. Castor was talking about, I 
want to kind of build on that for just a moment. I was not here 
for your formal presentation. I apologize. But I have written 
down just words, and I want to get to a question after I just--
I think, Secretary Wynne, you said I hope we won't be too small 
in the future; budget pressures; chicken and egg; desperate to 
save money; other comments that I have no need to read.
    I realize that, you know, this country is not your doing; 
that you have got to adjust to what is happening within this 
country. We are getting ready to have close to 80 million baby 
boomers to retire over the next 2 or 3 years that will start 
drawing Social Security.
    Congressman Sestak mentioned the issue of the $10 billion a 
month in Iraq, $300 million per day roughly. I am just at a 
point of--Secretary Wynne, how long--your comment again I 
repeat, ``I hope we won't be too small in the future.''
    Let us talk a little bit about the future. I am always 
concerned about China. Not so much that China is going to 
attack America, but China is a nation that has proven that it 
is very smart in the respect of patience. And if this country 
is in such a situation where you, as a Secretary of the Air 
Force, and certainly the other secretaries would say the same 
thing, that they have budget pressures, I hope we are not too 
small in the future. Knowing that we have a trade deficit of 
about $300 billion with China, being told that--I think you 
testified to this several months back--that they are spending 
their money to build their Air Force, they are buying the 
fastest fighter that the Russians make. The difference is we 
still have the best pilots. But how soon in the future are we 
going to compromise our air superiority with all of the 
problems that you can't control and we can't even control them 
in Congress, talking about the growing debt? How soon will that 
future come that we could be too small and our air superiority 
could be challenged?
    Secretary Wynne. Sir, let me start by saying that tonight 
and tomorrow morning we are prepared to go to war, without a 
doubt, and we would be victorious. There is not a doubt in my 
mind. As Chairman Pace, I think was asked, ``What do you do 
about additional threats?'' Clearly they rely on the Air Force 
and the Navy. And the both of us, by the way, are getting 
smaller in the number of ships and the number of airplanes. So 
right today we have no problem.
    What I worry about is the 2020 to 2025 time frame. That is 
when we will have essentially--if you look at our timeline, we 
will have theoretically shut down every production line in 
America other than the F-35. And at that point in time, you 
have got to ask yourself--and perhaps the tanker will be going 
on by then. And you have got to ask yourself, ``Is that what we 
want?'' And right now, I can tell you, with the erosion in 
operational readiness, the Chief and I see no alternative but 
to essentially recapitalize our way out of this operational 
readiness decline. I think our training is good. I think the 
spares are good. I think having some of the instructor pilots 
engaged in war, that could have an effect. We are trying to 
calculate that.
    Mr. Jones. General Moseley, would you speak to that also, 
please?
    General Moseley. Congressman Jones, the technology 
imbalance, we are already there. The F-15s that are in your 
district, they are wonderful airplanes, they are very capable 
airplanes. But against the new generation threat systems, they 
don't have the advantage that we had when they were designed in 
the late 1960's and built in the 1970's.
    The F-22 and the F-35 are the answer to the air dominance 
piece which is the predicate to anything that happens in a 
theater. So the deliveries of the F-22 and the F-35 are 
critical not just for the Air Force, but for the entire joint 
team in a strategic setting.
    So as far as the balance of technological capability, we 
are there with the threat system. That is why the F-35 and the 
F-22 are important. I could make the same point for the new 
bomber. I could make the same point for the tanker. I could 
make the same point across the spectrum on the space systems as 
well, and the capabilities that we can field that gives us that 
strategic leverage in the future.
    Mr. Jones. Thank you, Mr. Chairman.
    The Chairman. Ms. Boyda, please.
    Mrs. Boyda. Thank you, Mr. Chairman.
    And thank you for your service and being here. This can't 
be easy on anyone. As a member of the Personnel Subcommittee, I 
was just going to direct some of my questions in that regard. 
Just with the ILOs, you have kind of taken, or you have taken 
on a new mission, an additional mission. How are the ILOs 
affecting your retention and recruitment?
    General Moseley. Ma'am, they are having some impact. It was 
the same question that Congresswoman Castor was asking. We have 
been doing this for a while, and so we are seeing some cracks 
in some of the retention numbers.
    The recruiting numbers, we have not had a problem yet, 
touch wood. We are very selective about our recruiting. We have 
not changed the standards. We have not lowered the standard. We 
don't intend to lower the standard because of the nature of the 
Air Force. That has not been the problem to date. Even the 
Guard, which we thought we were going to have a hiccup with 
that, we are now at I think 99.3 percent of their meeting their 
requirement.
    Mrs. Boyda. About 104 in Kansas.
    General Moseley. There you go.
    But the retention piece is different. Once you get into the 
folks that have been on active duty 6 years or 10 years or 
more, and they have had multiple deployments into tasking that 
is not in their mind their core competency, then we are having 
some challenges with that. And we work that very hard. We work 
that with the families. We work that with the training. We work 
that with the recovery time. We work that in theater, so that 
airmen work for airmen. We know where every one of them goes, 
what they are supposed to do.
    Mrs. Boyda. Let me ask another question as well, and I 
appreciate your direct answer on that. With contractors and, 
you know--we said that we know that this whole conflict is not 
going to be over any time soon--how many contractors would you 
say are working for the Air Force right now? And let me tell 
you where I am going with that question, so I don't have that 
little yellow light pop up here. When we--we are going to cut 
our troop strength in the active and the Guard, or the Reserve 
components of the Air Force. A year from now, how many more 
contractors will you have hired or employed or contracted with? 
And two years from now, how many more contractors for every 
hundred people that are cut, how many more contractors? And by 
the way, I hope to be here in two years to ask you this 
question, Secretary.
    Secretary Wynne. We are going to have to get back to you on 
the baseline, so that you can properly ask the question and we 
can get a score sheet for you.
    [The information referred to can be found in the Appendix 
on page 69.]
    Mrs. Boyda. My anticipation is, how many of those are going 
to be replaced by contractors?
    Secretary Wynne. I am cutting the operations and 
maintenance money as well, and we are actually--so we are 
driving out contractors. I have asked for a 10 percent 
reduction in contractor labor over the course of time. This is 
not going to be a suffering that is just inside the service. 
This is going to be in our contractor support, too. I got a lot 
of push back. I got a lot of push back, because there is a 
great contractor community. And we all try to add value to the 
Air Force.
    Mrs. Boyda. So the airmen, and I appreciate and agree with 
what you are saying, the airmen, the thousands of airmen that 
were additional airmen that we are going to be cutting, active 
and Reserve, do you anticipate any of those being picked up? Is 
there any place in the budget, any place, any budget, are we 
going to be replacing airmen with contractors?
    Secretary Wynne. It is all on the basis of need and 
requirement. But, right now, we are actually looking at the 
Reserve, as whether or not they should have some restoration. 
If we examine how we spend our money across our Air Force, we 
are looking at all the active, all the National Guard and all 
the Reserve to make sure that, if we have to go up as a result 
of the ground force improvement, that we kind of bias it to the 
Reserve, the National Guard and the active, in that kind of 
order.
    Mrs. Boyda. Again, I don't know if I got--are you 
anticipating any of these airmen cuts to be replaced by 
contractors?
    Secretary Wynne. As I said, I have asked for a reduction in 
contractors as well. I don't know the specifics of your answer 
because that is a very office-to-office thing.
    Mrs. Boyda. If there is a chance to take a look at that, I 
certainly would appreciate it.
    Secretary Wynne. Yes, ma'am.
    Mrs. Boyda. Thank you very much.
    The Chairman. Thank the gentlelady.
    Mr. Akin to be followed by Mr. Marshall.
    Mr. Akin. Thank you, Mr. Chairman.
    And Mr. Secretary and General, earlier this year, the Air 
Force leaders testified in support of the retirement of at 
least 30 of the C-5s and procurement of at least an additional 
30 C-17s. Is this still the Air Force's official or unofficial 
position? If yes, does the Air Force plan on funding C-17s in 
2009 or 2010 or beyond? And if not, why has the Air Force 
stopped talking about the working for the so-called 30-30 
proposal?
    Secretary Wynne. Thank you for the question. The 30-30 
proposal was just that, a proposal. It was in response to 
requests from Congress as to what would be a preferred, if you 
were just taking life cycle costs into action. We have never 
had the money to fund the C-17s. So we are congressionally 
restricted by law from retiring C-5s. So we did not put 
anything in our budget that would violate the law. And that is 
where we stand right now.
    Mr. Akin. So, then, if the C-5 part of the law were taken 
away, would it then be your interest, if you could, to replace 
those 30 C-5s with C-17s?
    Secretary Wynne. If the C-5 law was taken away and we could 
manage the fleet, I think what we would like to do is pretty 
much documented in that proposed 30-30, because we still need 
300 lifters.
    General Moseley. Sir, we still need the C-5s. The ones that 
remain in the inventory, we need them in the best shape we can 
possibly put them in.
    Secretary Wynne. Right.
    Mr. Akin. As I recall, there are different models of those, 
and it was the earliest model, the performance of those has 
been very poor in terms of maintenance. And apparently, the 
costs are just continuing to skyrocket on those. Is that 
correct?
    [Nonverbal response.]
    Mr. Akin. So if we did see fit to take out the language 
that the Senate had put in in protecting those planes that are, 
what, 30 percent available or something like that; if we could 
not protect those anymore, then it would make sense to have 
some other lift capability. The C-17 has been working well for 
you. So that would make--so that is that 30-30 proposal. So you 
still support that. Just we have to get that language out. Is 
that correct?
    Secretary Wynne. Right. Because I cannot tell you that I 
have a lot of money to put against C-17s. And as I mentioned, I 
really can't go against the law until you all act.
    Mr. Akin. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank the gentleman from Missouri.
    The gentleman from Georgia, Mr. Marshall.
    Mr. Marshall. Thank you, Mr. Chairman. I appreciate--am I 
on here? Thank you, Mr. Chairman.
    I appreciate your leadership for our Air Force and the job 
that you do and the job that the Air Force does. The chairman 
encouraged you to think strategically, or to at least make more 
strategic presentations to us. And just on the C-5/C-17 
continuing debate that has been going on for, gosh, at least 10 
years now, we have got the recent news concerning reliability 
enhancement and re-engining program (RERP) and the dispute 
concerning the anticipated costs between the Air Force and the 
contractor and then Institute for Defense Analyses (IDA) 
stepping in and splitting the difference between the two 
contestants here and the possibility of a Nunn-McCurdy breach.
    It seems to me that that is--and it is necessary for you to 
do this in the day-to-day management of the Air Force. But that 
is getting down into the weeds a little bit more than we ought 
to. And the reason I say that is because I continue to be 
convinced, and I think an awful lot of other people are also, 
that 300 is not the number and that the minimum need is 
probably a good bit more than that. That the Air Mobility 
Study, it was fundamentally flawed with the assumptions that 
were required to be made, and with the absence of any real 
study of the inter-theater use of C-17s specifically. And we 
have got to be above 300. And to get above 300, it may well be 
that we wind up concluding it is wisest for us to keep those C-
5s, or at least an awful lot more C-5s and add more C-17s. And 
if the Air Force--are we going through another or an update to 
the Air Mobility Study? I know----
    Secretary Wynne. Yes, sir, I understand we are going 
through another. It is called MCS-08, which I guess is Mobility 
Capability Study, fiscal year 2008, which I think is underway.
    General Moseley. Yes, it is.
    Mr. Marshall. Mobility capability study concept of this?
    Secretary Wynne. Yes.
    Mr. Marshall. That would be great. I really think it is 
foolish for us to make some dramatic move with regard to the C-
5/C-17 choice before we hear what our real strategic need is. 
JCA, Representative Courtney mentioned, it is probably 
inappropriate for us to take any dramatic steps to change the 
present course as part of the conference committee, given what 
the Senate has done. My reaction, Chief, is to agree with you. 
This is a roles and missions issue. It is an Air Force kind of 
deal. Air Force ought to be taking the lead with regard to this 
lift and ought to be taking the lead with regard to lift and 
all aspects, training, maintenance, et cetera. And, you know, 
part of whether or not we change clearly would be whether or 
not there are going to be substantial delays. Senator Levin 
sent a letter. Question six in the letter specifically raised 
the question of delay. Air Force gave one response, Army gave 
another response.
    It would be very helpful, Chief, if General McNabb perhaps 
could take the lead, I don't know who you would direct to do 
that, in responding to the Army's response. Army clearly 
contemplates that there will be substantial delays. General 
McNabb's comment was pretty brief, simply says, no, we don't 
anticipate there will be any delays. But then Army got into the 
details concerning why there would be delays. So, you know, 
obviously, we are not going to move forward in conference here 
to make some dramatic change unless Senator Levin's question 
concerning number six is answered. And maybe you guys could get 
that done.
    General Moseley. Sir, please let us take that for the 
record, and we will get Joe McNabb to provide that for you.
    [The information referred to can be found in the Appendix 
on page 65.]
    Mr. Marshall. UAVs, I guess I could get you to speak for a 
while on that subject. It has got to be a sore point at this 
point. Back to roles and missions again. I hope that the deputy 
Secretary's recent decision is a temporary decision, and that 
the DOD will be complying with our directive and committee 
report that some clear statement is given to us by DOD 
concerning roles and missions effectively by March 31st of next 
year.
    Secretary Wynne. One thing we know for sure, sir, and from 
a strategic basis there would be no argument over UAVs if we 
didn't have air dominance.
    Mr. Marshall. Absolutely.
    Secretary Wynne. Because we own the skies, we can talk 
about it.
    General Moseley. Congressman Marshall, this is another one 
of those topics George and I are going to spend some time with. 
As you would imagine, as service chiefs, we see this pretty 
much the same about competencies and about providing, at the 
strategic level, the operational level, the tactical level, 
where those demarcations are.
    Mr. Marshall. Before my time expires, Chief, I am so tired 
of this particular subject--I know you are as well--it is the 
Air Force Personnel Reorganization. You know, frankly, my 
impression is that Air Force Personnel Center (AFPC) is 
designing a test to prove that it works. And that is not a real 
test. You know, if AFPC considers that there needs to be one 
standard for all of the Air Force concerning fill, look at San 
Antonio's progress with regard to fill. It is pitiful, frankly, 
compared to what the large civilian centers are capable of 
doing. I am tired of bringing this up. I wish we could get some 
resolution that makes sense.
    General Moseley. Agree, sir.
    Mr. Marshall. Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you very much.
    Mr. Turner, to be followed by Mr. Taylor.
    Mr. Turner. Thank you, Mr. Chairman.
    I appreciate the Chairman's comments concerning strategic 
and visionary thinking.
    And I want to thank you, Secretary Wynne and General 
Moseley, for your efforts in not only leading the Air Force 
strategically, but also in trying to give us a picture of some 
of the variables that you face in thinking visionarily, as a 
vision for the future. Your presentation has included 
descriptions of cutting personnel, aging aircraft, escalating 
costs in acquisition and modernization, long lead times for 
replacement, congressional restraints on retirement, and 
declining and projected shutdowns of industrial base. Those are 
pretty significant variables that impact the ability of the Air 
Force in its future strategic thinking and in being visionary.
    As you know, in my district, we have Wright-Patterson Air 
Force Base, which is a base that is focused on our advantage on 
the battlefields of tomorrow. And that tomorrow is the future 
that we all look to you for as to how we are going to ensure 
that we have air dominance. And you have brought to us some 
significant issues that are impacting your ability to project 
our success in the future. In thinking on a visionary and 
strategic basis, looking at the restraints that you have on 
retirements, I was wondering if you could talk for a moment 
about that policy. Because I want to echo what Mr. Saxton has 
been saying on the restraint on retirements, specifically in 
the C-5 and the C-17 area. But I don't see any real good policy 
basis for the restraint that you have. And if you could give us 
some insight as to how a restraint on retirement fits within 
the Air Force or limits the Air Force and its ability for 
strategic and visionary thinking.
    Secretary Wynne. There is a belief, which we apparently 
have been unsuccessful in disproving, that if you park the 
airplanes on the side of the ramp somehow, a balloon goes up, 
those will magically turn into 5-year-old airplanes or 10-year-
old airplanes. It is a problem that I think we have tried to 
attack from several perspectives. But I must tell you, I would 
be disappointed with myself to tell you that we have yet been 
successful. There is clearly money to be saved and manpower to 
be saved in not maintaining these airplanes any longer. It is 
scary for the crews, frankly. It is getting that way. Although 
we have a Fleet Viability Board that tries to make sure that we 
don't violate the safety of flight.
    General Moseley. Sir, I feel frustrated in not being able 
to articulate something as simple to an aviator as having an 
airplane on these restrictions and not being able to retire it 
and move to the next generation. It seems so simple to me. So I 
suspect this is a failure on myself. I won't accuse my boss. 
But it seems we have been unable to articulate what I perceive 
to be the obvious on being able to manage our inventory and 
being able to put the money in the right place to meet the 
strategic vision of recapitalization and modernization and the 
new technologies. While we are managing the oldest inventory we 
have had in the history of the Air Force, and still have the 
restrictions on us that we have to attach a tug to airplane 
every 7 to 10 days and tow it to keep the tires from going bad 
that we have no intention of flying, or we have to take to an 
engine test stand and run every 25 or 30 days just to keep it 
in the status as required by the language. So I accept this as 
a failure. I have been unable to articulate why this is a bad 
idea.
    Mr. Turner. Of course, I don't see it as your failure that 
you are having to operate within a restraint that is imposed 
upon you. I see it as a great benefit that you are ensuring 
that we are well aware and continuously aware of how this 
impacts your ability to strategically and visionarily--and have 
vision for moving forward. On the issue of personnel, it seems 
to me, and I was a little confused by the discussion, you are 
proposing significant reductions in personnel in attempts to 
fund your modernization and recapitalization. But I did not 
believe that that was strategically where you wanted your 
personnel level to be. It is not as if you decided where your 
personnel should be and then from that looked where you would 
take those cost savings. You looked at your immediate need on 
equipment, recapitalization and modernization and then sought 
where you could find savings. How does that impact the future 
of the Air Force?
    Secretary Wynne. If you recapitalize on a reasonable 
schedule, what we note is you save maintenance and manpower 
almost immediately. If you can retire airplanes on a schedule, 
you save maintenance. We have forecasted that savings.
    Mr. Turner. Thank you.
    The Chairman. Thank the gentleman. Just before I ask Mr. 
Taylor, as I understand it, General, if an airplane, because of 
age and because of structure problems, is, in the opinion, of 
the Air Force unworthy to fly, you decommission that airplane 
despite the fact that it has not been officially retired by 
Congress. Is that correct?
    General Moseley. Sir, what we will do, because we cannot 
take it off the books, we are still required to spend money on 
it in the top 1,000 status or the XJ status. What we will do is 
just ground it and not fly it, which we have with some of the 
KC-135Es and C-130Es. But because of the language, we have to 
maintain it in a certain status, which means we have to put 
manpower, crew chiefs and money against it.
    The Chairman. Would it ever be flyable again?
    General Moseley. Theoretically, you could bring it back to 
flight status, but it would take an infinite amount of money to 
be able to do that for the entire fleet.
    The Chairman. Thank you.
    Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman. And General, thank you 
for your service. Secretary Wynne, thank you for your service. 
Secretary Wynne, I am going to direct this question to you 
because I regret it has taken me so long, but I have now come 
to clearly see a pattern. For seven years now, representatives 
of the Bush Administration come to this committee in January 
and February, tell us everything is fine, we need some slight 
tweaking of the budget, but we don't need a whole lot of money 
for this program. For seven years, in the fall, the same 
Administration officials will come before this committee with a 
story of gloom and doom. But by January when the budget request 
comes along, the gloom and doom has been transformed to this 
just needs a little tweaking. So in our annual gloom and doom--
and I am in agreement with you, by the way--we hear about the 
KC-135s, we hear about the B-52s, we hear about the B-1Bs, and 
we hear about HH-60s. Giving you now one last opportunity to 
come before this committee in January and February, what are 
you going to propose to fix these things?
    Because, quite frankly, if Congress adds money that the 
Administration doesn't ask for, then all these nice folks in 
the media back there are going to say it is pork barrel. So you 
have articulated very well some problems. And I am in agreement 
with you on these problems. And I know you are putting your 
budget together for January now. So which of these things are 
you going to propose to fix, or is it going to be like mine 
resistant ambush protected vehicles (MRAPs)? Is it going to be 
like body armor? Is it going to be like jammers? And is it 
going to be like up-armored Humvees, where the Administration 
fails to come up with a proposal and Congress has got to do it 
for them?
    Secretary Wynne. One thing we are charged to do, 
Congressman, and I am probably talking to the choir here, but 
when we understand the amount of resources that we get, we 
array those resources to the best defense America can afford. 
And we recognize that we are a wealthy country, but we are not 
spending at a rate anywhere close to what we would spend in a 
wartime event. We have made these choices. So when we get to 
understand what budget we are being allocated, it is much like 
the Chairman has indicated, we will array those resources to 
make sure that America stays protected to the best of our 
ability.
    Mr. Taylor. In the context of your answer, which I am in 
agreement with, when you hear the President say we need another 
round of tax cuts, does anyone in the DOD say, Wait a second, 
Mr. President, we got kids flying in 50-year-old airplanes, how 
about instead of a tax cut for your contributors we fix that 
airplane? Or that ship? Or produce those MRAPs, which the 
Administration has most reluctantly come around to the decision 
that we are going to build?
    I mean, I think these are all very fair questions, 
Secretary Wynne. And it is not that you have done this for one 
year--I am not saying you, I am saying the Administration 
people who have held your job. It is not that this has happened 
one time. This is now the seventh time that we have gone 
through this cycle where everything--and I guarantee, if you 
hold this job and I hold this job, come January, whomever is in 
your job is going to come before the committee and say, 
everything's cool, and we just need to tweak it a little bit. I 
am hoping to see you break that cycle in January. I am hoping 
you will come to this committee and not only say, We got old B-
52s, but I am asking for this much money to replace them with 
something better. I am asking for this much money to replace 
the KC-135s. I am asking for this much money to replace the B-
2s. Because I do sense some inconsistency on the part of the 
Administration request. And I think it has--the fix has really 
got to start with you all.
    Secretary Wynne. Well, in every good budget session, sir, 
we try to arm up our representatives that go to OMB. And I know 
they are going to argue to the best of their ability. We don't 
get invited to those sessions, so I would say to you that we 
try to arm them up with the best of the arguments that we can 
to make sure we can in fact get an affordable Air Force.
    Mr. Taylor. Again, I appreciate both of you for your 
service. Thank you for being here.
    The Chairman. Dr. Gingrey, please.
    Dr. Gingrey. Mr. Chairman, thank you.
    Thank you Secretary Wynne, General Moseley. We appreciate 
so much your testimony here today. I just want to comment that 
I think the C-17, of course, is a great airplane. And the C-5 
provides its own very unique capability as well. And as they 
are complementary in our airlift capability, and I hope, I 
truly hope we can find a way to buy C-17s and also continue to 
modernize our C-5s. But I wasn't here for the entire hearing, 
but I don't think that the C-5 has been treated fairly here 
today by the testimony that I heard and comments from some of 
the members.
    I want to ask you this question. If the Air Force signs a 
fixed price contract, and Lockheed was wrong, and the actual 
cost exceeds the contracted amount by $30 million, at that 
point, Mr. Secretary, Mr. Chief, at that point the contractor 
has to eat the difference, not the Air Force. And certainly not 
the taxpayer. Wouldn't the Air Force want the fixed price offer 
to be as low as possible, even if they were wrong, if it 
results in greater budget flexibility and allows us to buy more 
of other platforms like the very important C-17? It just seems 
like we are searching for an excuse here, any excuse to get 
away from the program of record. I wonder what the excuse would 
be if the contractor indeed offered a fixed price contract to 
modernize all the C-5s for free. Then would it be that the 
modernization was too cheap? Maybe we could call that a Mendoza 
breach, after a light hitting shortstop Mario Mendoza. Answer 
that question for me. Why, you know, the contractor offers a 
fixed price, they miss the mark a little bit, and you hold them 
to it. Is that not good for the taxpayer? And in fact, you 
know, as far as what the contractor said the price would be and 
what the Air Force said, there was a difference there of about 
$5 billion. But really when we had an independent body look at 
it, it was much more, much closer to what Lockheed said would 
be the price for the RERP and the avionics modernization 
program (AMP). So they were pretty close to accurate. Now, 
whether or not that is a Nunn-McCurdy breach I guess remains to 
be seen, but I would appreciate your answer to that question.
    Secretary Wynne. Sir, if you have ever dealt with a 
building contractor that has to tear into a wall, you know that 
it has to do with the terms and conditions of the agreement 
that you reach. And in a situation like this, I would tell you 
that a fixed price contract is the least you will ever pay. And 
the reason is because when you open up a C-5, the contractor 
has got to assume liability for making sure that it is safe to 
fly when it comes off of his line. And he has no idea what that 
looks like under the skin. Part of the disagreement here is 
that Lockheed is unwilling to take a fixed price with an 
unknown fix on an airplane. And part of the problem is that 
these C-5As, they are old. And I kind of agree with them that 
that is a very tough thing to do. So what you are saying is, 
can you limit the scope to those things that they do 
understand? And the answer is, that is not going to buy me a 
flyable C-5 airplane. So I have to go in and look at how things 
are working. But I know that Lockheed is trying very hard to 
bring us the best deal that they can, and I appreciate that. 
And I hope that they do, because I want to fly C-5Bs and some 
C-5As for some years to come.
    Dr. Gingrey. Well, let me just move onto another question. 
Regarding the 30-30 swap-out that has been talked about here 
this morning, the funds needed for the C-17 are a fiscal year 
2008 issue. C-5 RERP funds are not projected to be available 
until 2011. And I think General Schwartz put it best when he 
said, budget lines to pursue this option don't coincide. C-17 
procurement is a fiscal year 2008 issue. C-5 RERP funds for 
fiscal year 2008 are $253 million less than the cost of a 
single C-17. So how does retiring 30 C-5s pay for 30 new C-17s? 
If you retire C-5s now, will that pay for the C-17s?
    Secretary Wynne. That is right. If you think about current 
budget, answer is no. If you think about budget over the next 
25 years, answer is yes. It is very difficult, though, to line 
things up. I agree with you.
    General Moseley. Congressman, the dilemma we have, and I 
will speak for myself, I am a fan of the C-5 because of what it 
provides, the outsize cargo, the amount, the bulk, the square, 
the cube. The airplane is a magnificent airplane. Except some 
of them are getting to the point where they are not useful. The 
MC rates are not high. That is the concern we have got, not 
about retiring all of the C-5s, but getting and managing this 
inventory so we can get the right number of them so we can fly 
and operate them.
    Dr. Gingrey. Mr. Chairman, I know my time has expired. 
Thank you for letting us go over just a little bit. Thank you.
    The Chairman. Mr. Larsen.
    Mr. Larsen. Mr. Secretary and General, thanks for coming, 
helping us out today. General, you are somewhat apologetic in 
what you profess is your inability to communicate to folks like 
us the need for the flexibility in order to manage your 
platforms the way you need to do that. And I am with you. I 
wrote down something. Maybe you need something more pithy. That 
is we are forcing you to choose between requirements and 
retirements. And that is essentially what we are doing. We are 
forcing you to make that choice in a budget context that is 
very restrictive for you as well. And perhaps if we focused 
more on helping you meet your requirements and less on 
preventing retirements of platforms, we could have easier 
conversations with the Air Force.
    Secretary Wynne, just a quick note, I want to just review 
what I heard earlier in response to Mr. Everett's questions 
about the KC-X. You said you hope the KC-X decision will be in 
January 2008. So it is not going to be this calendar year?
    Secretary Wynne. I am trying very hard to retain it, but in 
response to our inquiries, the contractors did a superb job of 
responding to us and in some depth. And that is what caused us 
to miss some interim milestones. And bless their hearts, I know 
they are working their butt off, and I want to give them a fair 
treatment.
    Mr. Larsen. And fair treatment is going to be important. 
However, do you anticipate that this phase one of the buy will 
be an all or nothing? That is that it won't be a split 
procurement? Do you at least anticipate that?
    Secretary Wynne. Yes, sir, I do now.
    Mr. Larsen. You do now anticipate that will be an all or 
nothing? Phase one.
    Secretary Wynne. Phase one.
    Mr. Larsen. Okay. Sure. I want to give you an opportunity 
to talk about something other than airplanes. You recently 
found or heard that the Air Force recently found some 
additional problems in Space Based Infrared System (SBIRS) and 
released a memo with a cost assessment of a billion dollars to 
solve that problem. Have you identified the problems and the 
mitigation efforts?
    Secretary Wynne. The problem is in the software 
integration. It is as a result of a lesson learned from a 
current flyer, and it is a problem of fail-safe. In other 
words, one of the satellites that is in fact in orbit could not 
fail in a safe mode and so had to be taken off line. We think 
the same software is in the space based infrared system 
(SBIRS). It is a very fragile architecture. And we need to take 
some time so we don't essentially break the architecture trying 
to fix this what I consider to be a relatively easy problem. 
That having been said, I can tell you that because of the 
marching Army that associates with the satellite, once it is in 
construction, you have to keep it going.
    Mr. Larsen. Right.
    Secretary Wynne. And that is where the money comes from. 
And it pushes the entire program out. So it is my--I mean, 
reach for how bad could this get? It is not an estimate that I 
would be proud of. And I am hoping that by the November 7th 
meeting with the Under Secretary of Acquisition, Technology, 
and Logistics (AT&L), we have a much better handle on it.
    Mr. Larsen. So the $1 billion estimate is an estimate, and 
you are trying to work that----
    Secretary Wynne. Down.
    Mr. Larsen [continuing]. That number down.
    Secretary Wynne. Yes, sir.
    Mr. Larsen. And the problem in November--I don't want get 
into too much detail, but as I understand it, the problem you 
have identified is a software problem that you found in a 
current satellite----
    Secretary Wynne. Right.
    Mr. Larsen [continuing]. That will be in SBIRS, and you 
want to make sure that you fix that in SBIRS as you move 
forward.
    Secretary Wynne. Yes, sir.
    Mr. Larsen. Just so I understand. By November 7th, then 
will you have an idea on the schedule then, the impact on the 
schedule?
    Secretary Wynne. Yes, sir, that is our forecast for the 
Under Secretary is to come to him with an impact to cost and 
schedule, and which we hope to be robust.
    Mr. Larsen. Okay. Can you at that point then get back to us 
on what cost, what the impact on costs will be?
    Secretary Wynne. Yes, sir, I am pretty sure he will put out 
an acquisition decision memorandum (ADM), and you will be able 
to see that.
    Mr. Larsen. All right. Good. That is fine then. Mr. 
Chairman, thank you very much and thank the gentlemen.
    The Chairman. Thank you very much.
    Mr. Bartlett? Mr. Bartlett, let me ask one question right 
before I recognize you.
    General, what can a C-5 carry that a C-17 can't?
    General Moseley. Sir, latest data with current equipment, 
which is a partially erected Patriot battery and a Mark V 
boat--but--that is the outsize bulk. But the advantage the C-5 
has is it can carry more pieces of equipment than the C-17. But 
the size cube, the only two things that won't fit are the 
partially erected Patriot battery and the Mark V boat. That is 
half the answer. The other answer is just more stuff, more 
vehicles, et cetera.
    The Chairman. Thank you so.
    Mr. Bartlett.
    General Moseley. Sir, that is why the C-5 is so valuable to 
us.
    The Chairman. Yes. Thank you.
    Mr. Bartlett. I want to apologize for having to leave the 
committee for a markup in another committee and for a floor 
debate.
    Thank you very much for your service. Secretary Wynne, in 
September, you were quoted as saying, ``Right now, we like 
Boeing, but it is now, let the best company win.'' What did you 
mean by that, and do you think it was really appropriate to 
make that comment while the program was under such a high level 
of scrutiny?
    Secretary Wynne. Sir, that is the CSAR-X program that you 
are referring to. And by that time we had actually down 
selected Boeing as the winner, and the protesters--were 
protests, and the GAO was continuing to decide. And I will tell 
you that the Air Force did a superb study and down selected to 
Boeing. I think the GAO has told us go back. And I think my 
direction to the team is, you treat every contractor like they 
just walked in the door. So, right now, we have to treat every 
contractor like they are brand new, including Boeing.
    Mr. Bartlett. Thank you very much. I am glad we can get 
that on the record. General Moseley, you have said that the 
Chinook would not have been your choice for the combat search 
and rescue (CSAR) platform, that you were surprised when it was 
selected, but that the service would make it work. Why wouldn't 
you have picked the Chinook, and why do you think it emerged as 
the winner?
    General Moseley. Sir, I think it met the criteria of low 
technology risk. I think our acquisition people did everything 
they could to look at an open and transparent competition, and 
the Chinook won. But from my experience commanding the theater 
air effort in Afghanistan and Iraq, the Chinook is a big, heavy 
helicopter. Our combat search-and-rescue helicopters have not 
been that big and that heavy. So I was honest when I answered 
it, and I will still say it is not the one I would have picked, 
but if we end up with this helicopter, we will make it work. 
And our Army flies this into some very dangerous places. The 
airplane is survivable. We will make it work.
    Mr. Bartlett. Thank you very much. I appreciate your 
honesty, sir, and the opportunity to get this on the record. 
Are we relatively happy with the KC-135R?
    General Moseley. Yes, sir. We are very happy with it, but I 
don't know how much longer we can be happy with it until we----
    Mr. Bartlett. How do we get KC-135Rs?
    General Moseley. Sir, we put bigger engines on them.
    Mr. Bartlett. We put bigger engines on what?
    General Moseley. On both the KC-135E and the KC-135R from 
the original baseline. They had much more efficient engines. 
The R model is the most efficient.
    Mr. Bartlett. Don't we convert Es to Rs?
    General Moseley. Sir, we have converted some Es to Rs. If 
you allow me to take that for the record, we will get you the 
exact details of the entire inventory.
    Mr. Bartlett. I think we convert a lot of Es to Rs. Do you 
know how much it costs to convert an E to an R?
    General Moseley. Sir, we will take that for the record if 
you allow us.
    [The information referred to can be found in the Appendix 
on page 69.]
    Mr. Bartlett. It is just a fraction of the cost of buying a 
new tanker. And since we are happy with the Rs, and an R made 
today is going to be better than an R that was done 10 years 
ago, right? I am having some trouble understanding, with our 
tight budgets, why we aren't more interested in converting the 
Es, with which we are considerably unhappy, to Rs, with which 
we are quite happy, when the cost is very small compared to the 
cost of buying a new platform.
    General Moseley. Congressman, let my take that on from 
aviator perspective. The airplanes were designed in the 1950's, 
and those airplanes were built during the Eisenhower 
Administration. And the structure on those airplanes is not a 
modern structure. We have also operated those airplanes now for 
about 40 years. So the money spent on modification of one of 
the old airplanes is you still have an old airplane. My fear, 
when I am asked what do you worry about at night, is a 
catastrophic failure of one of these 707 air frames, and we 
ground the entire fleet. And the impact we will have in the 
strategic setting of no jet tanker, sir, I believe is an 
unacceptable risk.
    Mr. Bartlett. It is just a matter of priorities. If we had 
all the money in the world, clearly we would replace all of 
them. We don't. And I just am concerned that there may be 
higher priorities for the use of our limited dollars. And we 
are pretty happy with the R. The E is a problem. Let's convert 
the Es to the Rs. And I thank you, Mr. Chairman.
    The Chairman. Thank you. It appears, Mr. McIntyre, you will 
be able to close out our hearing. We do have votes. However, I 
think Mr. Saxton will have a question or two afterward. But we 
will be able to squeeze it all in before we go vote. Mr. 
McIntyre.
    Mr. McIntyre. Thank you, Mr. Chairman. I have three or four 
questions, and I will say them quickly, and then what you can 
answer very succinctly, please do. Number one, with all the 
space systems providing so many critical capabilities to the 
warfighter, to global positioning, protected communications, 
intelligence and so on, do you see the Air Force, as we talk 
about the future, requesting a larger percentage of the budget 
toward supporting space program needs?
    Secretary Wynne. Yes, we do. We have got the space I think 
under control, and now is the time to exploit the management 
techniques that we brought to bear on back to basics.
    Mr. McIntyre. Do you know about how much you expect that 
percentage to grow by?
    Secretary Wynne. No, sir, I don't.
    Mr. McIntyre. If you have any projections on that, if you 
could supply them that would be helpful. Second, speaking of 
the future, the next generation bomber you talk about wanting 
to field by 2018 in your testimony. Can you tell us if you have 
any particular designation for this bomber yet, and if you have 
any of the plans on the drawing board?
    General Moseley. Sir, we would have to go to a different 
setting and a different classification to talk about that.
    Secretary Wynne. We don't have any names for it, though, 
like any snappy names. If you have one, we----
    General Moseley. No, sir. But to talk about those sorts of 
things, we will need a different configuration.
    Mr. McIntyre. But are you working on that next-generation 
bomber?
    General Moseley. Absolutely, sir.
    Mr. McIntyre. And there is not a designation number yet for 
it at all?
    General Moseley. No, sir.
    Mr. McIntyre. Okay. There have been several accidents 
involving F-16s. Many reported nationwide through the AP just 
as recently as yesterday. And we know that there have been 10 
class A F-16 accidents in the past fiscal year, which was up 
from 9 the previous year, up from 5 the year before that, up 
from 2 the year before that. I don't know if you all have done 
a study or have an answer to what is occurring here that you 
can supply in more detail. Or if you have a short answer, you 
can give that right now.
    General Moseley. Sir, you know, we take this very serious 
about the safety of the airplanes and the people that we ask to 
fly them. So the loss of any airplane, and for sure the loss of 
any of our pilots is a catastrophic event for us and the 
families, whether it is Guard, Reserve or active. Sir, you also 
know that we take every opportunity in training and in rules of 
engagement and in training rules to minimize the threat. The 
details of each of those losses are all somewhat different. We 
haven't got a constant thread of a wing failure or a tail 
failure. It is a moving challenge to operate aging aircraft and 
to protect our people and still meet the mission requirements. 
If you will let us take that question for the record, we will 
get you the details of each of those, and the constancy of each 
of the outcomes of the investigations.
    Mr. McIntyre. That would be helpful. Do you have someone 
specially designated, given this increasing pattern of failure, 
that is specifically looking at this?
    General Moseley. Sir, we have a major general who runs our 
office of safety, and that is his entire life is to watch this.
    Mr. McIntyre. What is his name, sir?
    General Moseley. Griffin. Sir, we will get you all of that.
    Mr. McIntyre. If you could, at least a preliminary report 
in the next two weeks to my office, that would be helpful.
    General Moseley. Yes, sir.
    Mr. McIntyre. Finally, can you tell me why, this is 
something that many people have wondered, but no one will ever 
address it, why we jumped in designation from F-22 all the way 
to F-35? Are all those numbers intermittently not going to be 
reserved for future aircraft? Are they just going to be 
skipped?
    General Moseley. Sir, previous administrations, previous 
predecessors made some of those decisions. If you have watched 
how we have gone back to the basics on designation of numbers, 
we are going back to a sequence. I can't answer why we went 
from F-22 to F-35, but I can tell you, as we get into the new 
tanker, it will be a KC something that is in sequence with the 
rest of the airplanes. Each of the new aircraft we field the 
nomenclatures will be in sequence, because I believe that is 
the only right way to do it.
    Mr. McIntyre. Correct. Do you know the answer to that, 
Secretary?
    Secretary Wynne. No, sir, I don't.
    Mr. McIntyre. Okay. A few years ago, when I asked that 
question, I was told, because it was a favorite number of one 
of the generals; he liked the number 35. I don't know if you 
can check that.
    General Moseley. Sir, I have no clue, but we will go check.
    Mr. McIntyre. All right. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you so much.
    Mr. Saxton, you have a wrap-up question?
    Mr. Saxton. Thank you very much, Mr. Chairman.
    Quickly, back to fee-for-service demonstration for just a 
minute. General Moseley, do you need legislation to proceed 
with the fee-for-demonstration project? And second, if you are 
not forced to do this with legislation, will you still give it 
full and fair consideration?
    General Moseley. Sir, I think there is something to be said 
to doing it. The Secretary and I have talked about this. I 
think there is a very useful notion of looking at this concept. 
And so I believe we will do it, whether we have language or 
not, to look at that scope and look at the validation of that. 
We need to know that before we can answer the specific 
questions on operational impact. And I don't have that yet.
    Mr. Saxton. So to answer the question, do you need 
legislation to proceed with the fee-for-service demonstration, 
you would say----
    General Moseley. No.
    Mr. Saxton. Thank you.
    General Moseley. Sir, the follow-on is, would we conduct 
the test? Yes.
    Mr. Saxton. Thank you. I am told that in the cost of the C-
5 modernization program which caused the Nunn-McCurdy breach, 
the level of confidence in that number, which you wrote in a 
letter to us was $17.8 billion, the confidence level that that 
number is correct is apparently 50 percent. What would that 
number look like--I mean, that is a fairly low confidence 
level, I would assume. If a business person started out on a 
project assuming that he was going to spend X number of dollars 
and he had a 50 percent confidence level that that is what he 
was going to spend, the business person wouldn't feel real good 
about that. What would that number look like if we had a higher 
level of confidence, let's say 80 percent, that the number is 
correct?
    Secretary Wynne. Sir, I would have to get you that for the 
record. I don't have it right off the top of my head. It would 
be higher.
    [The information referred to can be found in the Appendix 
on page 69.]
    Mr. Saxton. It would be higher. Okay. There have been 
several members here today who have advocated for modernizing--
continuing the modernization program for all 111 C-5s. I read 
in some papers recently that, if we did that, it would give us 
the equivalent of 10 additional airplanes. Can you speak to 
that, Mr. Secretary?
    Secretary Wynne. I believe the intent of the program, sir, 
was to increase the operational readiness from what is 
apparently in the mid-60's, say 65, to apparently in the mid-
70's, say 76. So that would be an improvement of approximately 
11 percent. I think where the calculation goes is that 11 
percent of what? And 11 percent of operational readiness 
applied to 111 airplanes is approximately 11 airplanes. And I 
think that is what, when you compare that to the cost of the 
program, you can see that it is a very different division than 
if you divide by 111.
    Mr. Saxton. We can argue about what the real cost of the 
modernization of the entire 111 is. The number that you wrote 
to us was 17.8 billion. Lockheed says 14 billion. But in either 
case, to increase the equivalent number of airplanes by 10, 
isn't that pretty expensive per airplane?
    Secretary Wynne. Per airplane, sir, by that divisor, it 
would be.
    Mr. Saxton. It would be like a billion-plus an airplane; 
wouldn't it?
    Secretary Wynne. By that divisor, it would definitely be in 
that range.
    Mr. Saxton. Mr. Chairman, I have found this hearing to be 
very useful and informative today. And I again want to thank 
you for hearing it. And I want to thank the Secretary and Chief 
for being here to share this information with us today. Thank 
you.
    The Chairman. Thank the gentleman, Mr. Saxton, from New 
Jersey. The Air Force I know has strategic vision. The Air 
Force I know has a strategy in the defense of American 
interests. And it would be very helpful to us to share that 
with us as we fit the budget or lack of budget into that 
strategic vision.
    General, you were good enough to speak about the war 
colleges and the larger thought that the military needs. And 
sitting behind you are six airmen who have either been to a 
senior or junior or intermediate or all of the war colleges. 
That is what they have done. And it would be very helpful if 
you would fit the jigsaw puzzle, Mr. Secretary, together for us 
next time that you come. It would be very, very helpful. And we 
know you live with budget problems. We know that. And they jump 
at you every day. They probably keep you awake at night. But it 
also would be very helpful for us to have that strategic vision 
shared with us, and how you may or may not be able to meet it 
through the budget. We thank you for your service. It is 
excellent. We thank you for your knowledge and, most of all, 
for your leadership. Thank you.
    Secretary Wynne. Thank you, sir.
    General Moseley. Thank you, sir.
    [Whereupon, at 11:49 a.m., the committee was adjourned.]


      
=======================================================================




                            A P P E N D I X

                            October 24, 2007

=======================================================================

      


      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            October 24, 2007

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T1575.001
    
    [GRAPHIC] [TIFF OMITTED] T1575.002
    
    [GRAPHIC] [TIFF OMITTED] T1575.003
    
    [GRAPHIC] [TIFF OMITTED] T1575.004
    
    [GRAPHIC] [TIFF OMITTED] T1575.005
    
    [GRAPHIC] [TIFF OMITTED] T1575.006
    
    [GRAPHIC] [TIFF OMITTED] T1575.007
    
    [GRAPHIC] [TIFF OMITTED] T1575.008
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                            October 24, 2007

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T1575.009
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                            October 24, 2007

=======================================================================

      
              RESPONSE TO QUESTION SUBMITTED BY MR. SAXTON

    Secretary Wynne. Sir, the $17.8 billion ($TY) we previously 
provided for total program cost at the 50% confidence level was 
subsequently adjusted to $17.5 billion ($TY) due to a reduction in 
spare engine requirements. That total program cost at the 80% 
confidence level would be $20.2 billion ($TY). [See page 49.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MR. BARTLETT

    General Moseley. The KC-135 Reengining line is closed. The cost to 
reopen the line is $40-50M. In addition to this one-time cost, the 2005 
Fleet Viability Board estimated the cost to convert a KC-135E to a KC-
135R at $37.1M. [See page 46.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MR. MARSHALL

    General McNabb. [This information is provided in a 6 Nov 07 letter 
to Congressman Marshall, which can be found in the Appendix on page 
65.]  [See page 38.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MRS. BOYDA

    Secretary Wynne. We have not offset the current organic reduction 
with an equivalent increase in contractor support. In addition to the 
manpower reduction referenced above, the AF reduced contractor support 
by $6.2B through the FYDP to help pay for recapitalization and 
modernization of the AF air, space, and cyberspace systems.
    We do not track the actual number of contractors in accordance with 
the 2002 National Defense Authorization Act (NDAA), Sec. 802, Savings 
Goals for Procurements of Services. Our contracts are written, and 
funded, for a specified level of service, not for specified numbers of 
contractor personnel. We have instituted policies and procedures to 
ensure that the scenario you described above does not happen.
    The Air Force continues to implement functional reengineering, 
reachback, warfighting headquarters, and continuous process improvement 
strategies to transform our Service to meet present and future missions 
within existing resources. We also instituted a policy that requires 
senior leadership approval of requirements exceeding $10M. The MAJCOM 
commander must approve requirements in excess of $10M with the AF 
Service Acquisition Executive approving requirements over $100M. [See 
page 35.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MS. CASTOR

    General Moseley. For the Air Force, costs for in-lieu-of (ILO) 
tasking expand beyond typical dollar costs. Impacts are pervasive 
within limited communities. Direct relationships, secondary and 
tertiary impacts, and cause/effect can only be characterized in a 
subjective manner.

ILO Opportunity Costs:

Retention--We are seeing affects on continuation and upgrade training 
for our airmen, yet we are still on track with our overall retention 
goals.

        Air Force (AF) retention slightly below expectations: 97% of 
        goal; as of 30 Jun 07 (3% below goal)
        AF carefully monitoring retention trends

        ILO tasked Air Force Specialty Codes (AFSC) 7% lower retention 
        than non-ILO Vehicle Maintenance, Vehicle Operations, Paving & 
        Construction Equipment, Structural Engineering, Aerospace 
        Medical, and Explosive Ordinance Disposal (EOD) falling short 
        of retention goals

Mobilization--Fiscal Year 2007 (FY07) mobilizations amounted to 2,902 
authorizations. Of these 1,033 were for ILOs filling EOD, Security 
Forces, Combat Search and Rescue (CSAR), Intelligence positions.

Medical--Currently the Army is unable to fill all requirements. This 
situation has AF medical personnel currently filling 62 deployments 
that last for 365 days. It is important to note the 60-day training 
tail makes the time away from home station up to 15 months, and home 
station medical facilities must backfill through Global War on Tenor 
(GWOT) contracts due to local healthcare market and short-notice 
notifications. There is the inevitable learning curve and training tail 
associated with bringing new members into the organizations. During the 
last six months AF Medical has lost 14 professionals (senior leaders, 
high demand specialists, and mid-level officers) who opted to separate 
and/or retire rather than deploy for 365-days. If a deployed 
professional is backfilled with contract civilians, the cost is steep. 
For example: a radiologist at a rate of $425,000 per year/per 
Radiologist. When filling ILO solutions, the Air Expeditionary Force 
(AEF) process loses its ``predictability and stability'', as ILO tour 
lengths don't always afford the opportunity to plan within AEF 
rotations. Access to care is an on-going issue. Two family practioner 
physicians on 365-day deployments equate to a loss of 20 visits/day and 
roughly $70/visit resulting in a loss of $1400/day in purchased care.

CSAR--ILO taskings continue to stress the CSAR HH-60 community with 
over half of all deployed assets supporting ILO missions. Due to focus 
on ILO taskings, the ability to concentrate on core CSAR mission has 
been greatly diminished with fewer opportunities to perform integrated 
Combat Search and Rescue Task Force (CSARTF) operations with CSAR and 
supporting forces, minimizing traditional CSAR experience across the 
force. In addition, the ops tempo of CSAR units has created the 
inability to maintain specific qualifications. For instance, Active 
Duty (AD) Continental United States (CONUS) units have ceased 
sustainment of NVG water operations and shipboard deck landing 
qualifications due to the inability to maintain currencies with 
deployment tempo.

Intelligence--To date, intelligence is accomplishing all JCS-directed 
requirements, but may soon need to reclama requirements. Many 
workarounds have been enacted. For example, US Air Force Europe (USAFE) 
fighter squadron intelligence shops have consolidated intelligence 
support functions at the Operations Support Squadrons (OSS) in order to 
accommodate deployment tempo. The primary deployers are 5- & 7-level 
enlisted, captains and majors. With these Airmen down range, there's no 
one at home to truly accomplish the OJT, mission certifications/
qualifications, and very critical day-to-day mentoring of 3-levels and 
trainees. This may lead to a generation of Airmen who are not be 
properly trained and equipped to handle the missions of the future. 
Extensive pre-deployment training requirement for the ILO positions 
adds 2-4 months additional time away from home station. This extensive 
absence impacts two primary areas:

        1. A good number of Intelligence positions have on-going 
        currency and certification requirements to ensure the Airmen 
        remain qualified to perform the mission. Examples are Air 
        Operation Center positions, Distributed Common Ground System 
        crews, and OSS-level platform currency. Therefore Intel 
        professionals must spend another 1-3 months regaining 
        qualifications in order to recertify in previously held 
        positions.

        2. Due to the length of ILO taskings and the 1:1 dwell of most 
        intel AFSCs, the home stations must make critical risk 
        assessments to determine what in-garrison mission will bear the 
        loss of the ILO deployer. This degradation is starting to show 
        in poor performances in Staff Assistant Visits and Unit 
        Compliance Inspections, because the home station missions can't 
        support the continuous loss of 50% of their personnel.

EOD--Unaccomplished training is the greatest cost of ILO support. EOD 
lacks the ability to completely support flying operations on various 
aircraft and weapons systems in the event of a ground or in-flight 
emergency. Standards are being lowered--range clearance standards have 
been reduced by 50% (1 yr waiver submitted) due to a lack in manning. 
Base Force Protection suffers without the ability to enact mutual 
support agreement with local authorities at home locations. This also 
leads to a deficit in Homeland Defense; EOD does not have resources to 
train with local authorities. Equipment is showing signs of degradation 
due to lack of manpower to perform maintenance.

ILO Dollar Costs:

    We estimate in FY07 the AF expended over $80M in operations and 
maintenance costs to support Army ILO missions. The major expense areas 
for FY07 include TDY travel to and from various training locations 
prior to members augmenting the ILO missions as well as additional 
personal equipment and gear to meet soldier standards. FY07 GWOT 
Supplemental funding was adequate to cover the day to day expenses 
associated with ILO missions. [See page 32.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            October 24, 2007

=======================================================================

      
                  QUESTIONS SUBMITTED BY MR. BARTLETT

    Mr. Bartlett. Is the Air Force considering a combined CSAR/CVLSP 
acquisition program? Do you believe that a combined approach could be a 
way of achieving long term cost-savings and reduction of risk?
    General Moseley. The Air Force originally considered a combined 
Combat Search And Rescue (CSAR-X)/Common Vertical Lift Support Platform 
(CVLSP) acquisition strategy. In March 2005, CVLSP was separated from 
the CSAR-X acquisition strategy to keep the CSAR-X effort on track and 
allow the Air Force to conduct further analysis supporting the CVLSP 
requirement. As of this writing, CVLSP requirements have not been 
vetted through the Joint Requirements Oversight Council (JROC), 
preventing a combined CSAR-X/CVLSP effort at this point. Once the 
program is funded and the requirements are validated, market research 
will be conducted to determine a material solution to replace the UH-
1N.
    Mr. Bartlett. The CSAR-X program is facing significant funding cuts 
in 2008. At this point, what is the need for any funding in FY08?
    General Moseley. FY2008 dollars will go towards the Combat Search 
And Rescue-X (CSAR-X) System Development and Demonstration (SDD) 
contract, including the purchase of test vehicles, as well as to pay 
for government costs, studies and test planning support.
    Mr. Bartlett. What lessons has the Air Force learned from the CSAR-
X debacle that can be applied to other high-level acquisition programs?
    General Moseley. We believe, in today's economy, protests will 
become more and more prevalent as aircraft manufacturers compete for a 
shrinking number of majority aircraft acquisition programs. While the 
government will never be able to completely mitigate the risk of 
protest in the acquisition process, we should be prepared to review 
even our most time-tested approaches to ensure clarity in our 
communications to offerors, transparency in our processes, and 
verifiable acquisition decisions.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LOBIONDO

    Mr. LoBiondo. During the hearing, you mentioned Associate Basing 
for ANG units who received and are to receive fifth-generation 
fighters. How do individual ANG units become eligible for Active 
Associate Basing status? What was the notification process for ANG of 
the policy of Active Associate Basing equaling fifth-generation 
fighters? Can you provide to the Committee the guidance for Active 
Associate Basing which were provided to ANG units? What concerns, legal 
and practical, about the integration of ANG and Active Duty personnel 
in the operational environment were considered in the Active Associate 
Basing development process?
    General Moseley. As the Air Force finds ways to recapitalize its 
fleet and yield a smaller, yet more capable force, it is using 
innovative basing constructs, known as associations, as one means of 
maximizing efficiencies. We must balance the need to enhance 
capabilities force-wide, but must do so with a shrinking inventory. As 
the Air Force strives to manage its assets across the 54 states and 
territories, associations have become the best way for bases to both 
retain and obtain flying missions. While we realize that all current 
Air National Guard locations would like to receive fifth-generation 
aircraft, and Active Associate basing constructs with this capability 
are in high demand, the fiscal responsibility that comes with such 
restructuring is enormous. The Air Force must be judicious in its 
decision-making processes; the demand for fifth-generation capabilities 
is growing against a fiscally limited supply.
    The primary, and most important factor driving all basing 
decisions, is the ability to generate combat capability to meet force 
structure and COCOM requirements. All Air National Guard bases 
currently flying comparable fighter aircraft will be considered for 
fifth-generation fighters except those bases that have been assigned 
new missions as a result of BRAC; these units will retain their new 
missions. In conjunction with the criteria that determines fifth-
generation fighter beddown, the Air Force takes into consideration 
factors such as available facilities, environmental impact, available 
manpower, usable airspace, and current number of aircraft when 
considering association basing opportunities.
    The National Guard Bureau is the primary channel of communication 
between the Secretary of the Air Force and the Adjutants General. Any 
state wishing to pursue an association should do so through the 
National Guard Bureau. Headquarters Air Force, in close coordination 
with the MAJCOMs and the National Guard Bureau, develops missions, 
basing decisions and identifies potential integration opportunities to 
satisfy current and future capabilities requirements.
    The successful planning and execution of Total Force association 
models relies upon the active participation of all stakeholders. 
Interested parties are strongly encouraged to familiarize themselves 
with the available Total Force Integration guidance, particularly Air 
Force Instruction 90-1001, Responsibilities for Total Force 
Integration. This guidance provides an extensive look at Total Force 
Integration associate basing models, objectives, command arrangements, 
roles and responsibilities, and essential direction regarding 
initiative establishment procedures.
    Legally, Title 10 and Title 32 of United States Code have presented 
some of the more difficult challenges to the Total Force mission. The 
FY2007 National Defense Authorization Act has helped knock down many of 
the barriers between Title 10 Federal and Title 32 State chains of 
command impeding successful integration. Continued discussion of 
legislative and policy changes are occurring and will need to continue 
to ensure that the Air Force is able to operate as a Total Force with 
the most effective use of resources.
    Practically, our experiences with Guard and Regular Air Force 
active associations have been very positive. To date, we have two 
fighter and one airlift Active Associate units (Burlington, VT, 
McEntire JNGB, SC, and Cheyenne Air National Guard Base, WY) that are 
working examples of successful integration. Success depends not only on 
the sound guidance of leadership and careful planning, but also on the 
relationships fostered between the Airmen of the associating units. 
Associate models ensure partnership in virtually every facet of Air 
Force operations, and great care must be taken to support each 
component's unique culture, heraldry and history.
    Mr. LoBiondo. How committed to the Air Sovereignty Alert (ASA) 
mission to protect the homeland is the USAF? Should the ASA mission not 
be the number one priority for the ANG? If ASA is the number one 
priority, why are some ASA units only given 90 days of work days (MPA) 
at a time? Are there plans to correct this funding/priority issue? If 
not, why not?
    General Moseley. The Air Force is 100 percent committed to 
protecting the Nation from all threats as directed by the President and 
the Secretary of Defense, and has provided a Total Force (Air National 
Guard (ANG), Air Force Reserve Command and Active Duty) solution for 
totally supporting the North American Aerospace Defense Command (NORAD) 
Air Sovereignty Alert missions. This support has been provided without 
reliance on other Services' air assets since the inception of this 
steady state activity.
    As part of the Air Force Total Force solution to the ASA mission, 
the ANG units tasked to participate have also provided 100 percent 
commitment to the NORAD operations. In FY2006, the ANG flew 1,365 
sorties and 4,021 hours defending the Nation's skies, including the 
tens of thousands of hours ANG members spend watching radarscopes, or 
sitting alert waiting for the call, or maintaining alert aircraft and 
facilities. This commitment to defend the United States homeland does 
not begin and end at our national boundaries, but the Air Force Total 
Force solution to the Global War on Terrorism (GWOT) guarantees that 
America is protected both within the U.S. and abroad.
    MPA days are resourced and executed throughout the fiscal year. To 
sustain maximum flexibility, the Air Force's Major Commands balance the 
needs of the Combatant Commanders with the requirements on a quarterly 
basis. We continue to search for solutions funding ASA just as we do 
with the full spectrum of missions as we seek to achieve total force 
victory in the GWOT against the asymmetric threat we face as a 
sovereign nation.
    Mr. LoBiondo. Is there a plan to keep ANG units currently flying F-
16s viable for both the ASA mission and a warfighting mission? What is 
that plan? Is there a performance metric for determining which ANG 
units are best suited to warfighting or homeland defense missions? Can 
you provide those metrics for review by the Committee?
    General Moseley. In short, yes. Air National Guard (ANG) units 
along with the rest of the Total Force maintain capability to meet both 
the Air Sovereignty Alert mission and expeditionary mission sets. F-16 
Ready Aircrew Program training requirements ensure that ANG, Air Force 
Reserve Command and Active Duty pilots are trained to meet combatant 
commander requirements, both in the homeland and overseas. While there 
is not a performance metric specifically designed to determine which 
ANG units are ``best'' suited for mission sets, all Total Force units 
train to meet requirements specified in their Designed Operational 
Capability (DOC) statement. Those requirements are evaluated by 
inspection programs at the local and Major Command (MAJCOM) level. Any 
unit that does not meet the warfighting readiness posture as specified 
by their USAF MAJCOM documentation receives daily attention of the 
MAJCOM commander and operations staffs who immediately initiate 
remediation to attain acceptable risk in warfighting readiness. 
Additionally, local commanders assess and report their ability to meet 
the DOC requirements monthly.
    Mr. LoBiondo. What is the ``Sierra Bravo'' Base Design Concept? How 
will it impact the ANG's ASA mission? Have the expected savings and 
benefits from Sierra Bravo implementation been analyzed from the 
perspective of ANG units operating older 4th generation fighters? Is it 
not true that many of the savings are based on speculative estimates of 
reliability of 5th generation fighters?
    General Moseley. ``Sierra Bravo'' is an Air Force reorganization 
concept which includes putting flight-line maintenance functions under 
the Operations Group as well as moving all other functions, including 
support shops, to depot or other centralized locations. We expect 
little impact on the Air Sovereignty Alert (ASA) mission. The Air Force 
does expect a savings, but fully recognizes that ``Sierra Bravo'' 
contemplated a ``Clean Sheet'' Air Base; and there are none of those. 
Thus the savings are very dependent on what idea is adapted from the 
many generated in the study. However, the Air National Guard, which 
operates with a small fulltime workforce in maintenance, medical and 
other support shops, does not expect to realize significant savings 
under this concept.
    Mr. LoBiondo. Regarding the Thunderbird's Block 30 F-16s, how many 
of the manufacturer's suggested upgrades do the Thunderbird's planes 
have? How many of these ``optional'' upgrades have the typical ANG 
unit's Block 30s received?
    General Moseley. In order to maintain a consistent configuration 
control baseline, modifications are frequently applied to all aircraft 
within a specific Block of the weapon system and are not considered 
``optional'' enhancements. Thunderbird and Air National Guard (ANG) F-
16s have received all of the basic structural modifications required 
for the specific Block of aircraft. Similarly, the mechanical system 
modifications are fully distributed across the Block 30/32 fleet as the 
aircraft all have the same egress, landing, and hydraulic systems. 
However, the ANG has both Block 30 and Block 32 aircraft which are 
identical except for the engines.
    The largest difference (outside the presence of the Thunderbird 
smoke generating system) between a Block 30 Thunderbird and a Block 30/
32 ANG aircraft is the modifications to the avionics systems. Due to 
warfighter requirements, ANG aircraft have been modified with 
significant enhancements over their Thunderbird counterparts. For 
example, the avionics modifications to the ANG Block 30/32 aircraft 
include Time Compliance Technical Orders (TCTOs) upgrading the color 
video camera, Situational Awareness Data Link (SADL) radios, antennas 
for the threat warning system, updates to the Fire Control and GPS/
Inertial Navigation System, and Advanced Color Programmable Display 
Generator (ACPDG).
    Mr. LoBiondo. The USAF standard PAA (Primary Aircraft Authorized) 
for an F-16 wing is 24 planes. How many support personnel are allocated 
to a 24 PAA F-16 air wing? How many support personnel are allocated to 
a typical ANG F-16 wing with an 18 PAA? With the current emphasis on 
Total Force Integration, why are there two different PAAs, one for 
Active Duty and one for the ANG, when ANG units are frequently tasked 
to warfighting missions in lieu of Active Duty units with more robust 
PAAs?
    General Moseley. The standard of 24 Primary Aircraft Authorized 
(PAA) per squadron is applied to CONUS fighter wings. This number does 
vary across active duty units. For example, during the fourth quarter 
FY2009, the overseas F-16 wings at Kunsan, Misawa, and Aviano, have a 
programmed squadron size of 18, 18 and 21 PAA per squadron 
respectively.
    Using the 20th Fighter Wing (FW) at Shaw AFB as the model for a 24 
PAA Active Duty (AD) F-16 wing, the USAF has 776 programmed support 
personnel.
    An 18 PAA Air National Guard (ANG) F-16 wing has an average base 
operating support of approximately 400 military with 120 of these being 
full time.
    As stated, variations do exist with PAA. The Base Realignment And 
Closure (BRAC) FY2005 report suggests that 24 PAA is best for 
efficiency and effectiveness with respect to the older legacy fighters. 
However, the report also states that ANG wings can accommodate an 18 
PAA squadron size because of the higher experience level of the 
personnel.
    Mr. LoBiondo. When can the Committee expect a detailed plan for 
distribution of fifth-generation fighters such as the F-22 and F-35 to 
ANG unit? Would a full Committee hearing on the ASA mission on the 
issue so Members could gain insight and provide input be helpful?
    General Moseley. The Air Force gathered its senior leaders in late 
October to finalize a single vision, or ``roadmap'' for basing fifth-
generation fighters, as well as for other future weapon systems. Since 
this meeting there has been a concerted effort to work the details of 
this roadmap; a follow-up meeting to present the plan to the 54 
Adjutant Generals is slated for the first week of December. We expect 
to publicly announce a list of candidate bases in the near future. The 
Air Force goal is, to the maximum extent possible; integrate assets 
from the Total Force (Active Duty, Air National Guard, and Air Force 
Reserves) at each location. While the Air Force stands ready to answer 
any questions presented by Congress, our basing plan will take into 
account the importance of the ASA mission, and an additional Committee 
hearing on the matter will not be necessary.
    Mr. LoBiondo. I am aware of the so-called ``Four Corners'' proposal 
for transition of the F-22 into the Air National Guard. Is there a 
similar proposal for integrating new F-35s into the ANG for the ASA 
mission? What factors were considered or do you expect to be considered 
in formulating such a plan? Under the current proposal, are the F-22s 
to come from the 183 USAF buy or from a separate buy coming from ``ANG 
funds''?
    General Moseley. The FY08PB funds F-22A production at 183 aircraft. 
The last F-22As will deliver to the Hawaiian Air National Guard (ANG) 
in FY2011. Based on the requirement to fill out existing combat 
squadrons to an optimum 24 Primary Assigned Aircraft end strength, F-
22A procurement must increase beyond 260 before the Air Force considers 
``Four Corners'' basing locations. Future procurement decisions that 
address the 381 F-22A requirement will take ANG basing locations into 
consideration. There is currently no proposal for distributing F-35s 
based solely on the Air Sovereignty Alert (ASA) mission. The F-35 will 
assume the ASA mission as the legacy workhorses, F-15 and F16, phase 
out of service. The Air Force plans to procure large numbers of F-35s 
to replace the currently aging legacy fighters, ensuring the ANG's 
integral role in F-35 basing plans.
    Mr. LoBiondo. Does the USAF direct a flying hour reduction ``tax'' 
program to recoup dollars for other programs and then take manpower 
positions away from Wings because they say the positions are tied to 
flying hour programs? Is it not true that positions have traditionally 
been tied to numbers of aircraft assigned to a wing, i.e. PAA, not the 
number of flying hours expected to be flown?
    General Moseley. The Air Force does not direct a flying hour 
reduction ``tax.'' The Air Force programs and executes flying hours in 
the President's Budget to meet its ``peacetime'' training requirement. 
Manpower is earned by the number and type of Primary Aircraft 
Authorized (PAA) in support of War Mobilization Plans and Training/Test 
Requirements. The process used to determine manpower per PAA takes 
wartime and peacetime flying hours, as well as a number of other 
variables (e.g. sorties rate, sortie duration, deployment location) 
into account. Minor changes in any one variable result in a negligible 
impact to manpower requirements.
    Mr. LoBiondo. Does the USAF now look at ``seasoning days'' for 
newly minted pilots just back from earning their wings as less 
important today then just two years ago?
    General Moseley. The Air National Guard (ANG) views the training of 
our Airmen as our single highest priority. Seasoning days are exclusive 
to the ANG and Air Force Reserve. Seasoning days are utilized as a 
mechanism for providing experience to our ``newly minted'' fighter 
pilots upon completion of their Formal Training Unit (FTU) training and 
after they return to their home unit. Seasoning days are designed to 
allow the pilot to concentrate on honing their skills without conflict 
from their civilian job and provide base-level of experience before 
transitioning to a traditional, part-time status.
    Mr. LoBiondo. Isn't it true that the mission has become more 
complex and very difficult especially since we're at war, yet the USAF 
has taken away the standard two years of seasoning in favor of less 
seasoning days (255 instead of 365 days per year)?
    General Moseley. The first and second-year fighter pilot seasoning 
requirements are being funded as part of the Air National Guard formal 
school training program. The first year seasoning requirement is 
programmed and budgeted specifically for the purpose of seasoning; and 
immediately following completion of training at the Formal Training 
Unit (FTU). The second-year fighter pilot seasoning is a different 
issue. As a result of increased complexity in aircraft and missions, we 
expanded the seasoning program from one-year to two-years of fighter 
pilot seasoning. Prior to Fiscal 2007, the second year seasoning days 
were funded from an existing program, the special training (ST) funds. 
The impact of using an existing source of funding is management must 
take an innovative approach to address all requirements.
    We have taken this challenge and developed a comprehensive method 
of assuring the ``totality'' of training requirements is achieved. Each 
member is entitled to 254 days for first and second year seasoning. 
When these 254 days are combined with other training programs, 15 days 
of annual training (AT), 48 additional flying training periods (AFTP), 
and 48 unit training assemblies (UTA), each member receives a total of 
365 days of duty towards each year fighter pilot seasoning requirement.
    Mr. LoBiondo. Why has the USAF chosen to toughen the inspection 
standards into areas of minutia while knowing that ANG units are 
stretched very thin performing dual tasked missions and supplying 
airmen into war Areas of Responsibility (AORs)? Could this be 
considered an unprecedented demand to ask of the volunteer airman and 
unlike any other wartime schedule where inspections were put on the 
back burner to fight the war with the full impact of people not worn 
down by off cycle inspections? Why does the USAF talk about 
``transformation'' and how to change the construct into more efficient 
warfighting capability and yet the inspection process has not evolved 
out of the Cold War mindset?
    General Moseley. Inspection standards have not been toughened into 
areas of minutia. The Air National Guard (ANG) is inspected by the same 
standards as the active duty. ANG are designated as an operational 
reserve and are therefore an integral part of Air Force operational 
forces. Because the Air Force operates as a total force, it is critical 
that the ANG, Air Force Reserve, and active duty maintain the highest 
levels of force readiness. The inspection process is how the Air Force 
validates its capability and ensures units remain viable, relevant 
members of the Total Force.
    Inspections are designed to complement not detract from real-world 
missions. While inspections were put on hold immediately following 
September 11, 2001, once Air Force got into a battle rhythm, 
inspections were re-started because readiness is not just the next 
deployment to Southwest Asia, but includes the ability of the unit to 
meet other potentially assigned wartime, contingency, or force 
sustainment missions.
    The Air Force inspection system has undergone significant changes 
over the past 10 years and thus has been on the leading edge of 
transformational change. In 1997, the CSAF commissioned a Blue Ribbon 
Commission to conduct an ``end-to-end'' review of the Air Force 
assessment program. The 1997 Blue Ribbon resulted in sweeping changes 
to the Inspector General (IG) inspection process including the 
elimination of Quality Air Force assessments and reduction in the 
quantity of items required for compliance inspections. Additional Air 
Force level inspection policy changes have been implemented since that 
time. It is now Air Force policy to minimize the inspection footprint 
to the maximum extent practical. MAJCOM IGs use sampling, combined 
inspections, multi-MAJCOM inspections, credit for unit activity in 
conjunction with exercises and contingencies, and other measures of 
sustained performance as inspection credit. The results of these 
changes have been significant. MAJCOM IG staffs have been reduced from 
over 1100 in 1997 to approximately 500 today and inspection intervals 
between Operational Readiness Inspections (ORI) and Compliance 
Inspections (CI) have increased (not decreased). In 1999 ARC units 
could expect an inspection every 3 years, today's average is 4 years.
    Mr. LoBiondo. How would you address concerns that the overall 
``inspection creep'' bar for performance has risen ``over the top'' and 
detracts from the real world missions ANG units are expected to perform 
and perform well? Is the USAF substituting inspection ratings for real 
world performance in assessing ANG unit capability?
    General Moseley. Inspections are designed to complement, not 
detract from real-world missions. They are how we validate our 
capability and show combatant commanders we perform our missions by the 
book and do it well. Inspections are a good way to train, test, and 
validate combat readiness before a unit has to send personnel in harms 
way. The governing instruction on Inspector General (IG) activities, 
Air Force Instruction 90-201, states that it is Air Force policy to 
minimize the inspection footprint to the maximum extent practical so as 
not to detract from real world missions. Major Command (MAJCOM) IGs 
understand the unique characteristics of the Air National Guard (ANG) 
and go to great lengths to ensure inspection schedules are properly 
coordinated and deconflicted with known, major deployments.
    The Air Force is not substituting inspection ratings for real world 
performance in assessing ANG unit capability. Many MAJCOM IGs provide 
inspection credit for real-world training and contingency events. 
However, it is impractical for IGs to deploy with a unit to a forward 
operating location and actually observe real-world combat operations. 
The IG is tasked to evaluate a wide spectrum of combat readiness 
scenarios vice a single specific scenario potentially seen during an IG 
inspection at a forward operating location. The ANG is committed to the 
Air Force's inspection process. Inspections conducted by an objective 
and independent IG are key to certifying our ability to provide forces 
anytime, any place and ensure we are prepared for more than the next 
deployment to Southwest Asia.
    Mr. LoBiondo. Are there plans or proposals to eliminate the 
National Guard Bureau realigning the Guard Directors' reporting chain 
directly to their Service Chiefs? Would this not usurp the traditional 
balance of authority within the National Guard? How do you envision any 
such proposal interacting with the National Guard Empowerment Act?
    General Moseley and Secretary Wynne. The Air Force is unaware of 
any plans or proposals to realign the reporting chain of the Director 
of the Air National Guard (ANG) to the Chief of Staff of the Air Force. 
The Air Force continues to integrate the ANG as part of the Total Air 
Force as it has for over twenty years. The existing reporting chain of 
the Director of the Air National Guard has been effective and the Air 
Force believes that it is more efficient to keep the current command 
alignment in its present format where many Title 10 and Title 32 
requirements are executed and effectively coordinated. Finally, the Air 
Force cannot predict how such a proposal would interact with pending 
legislation such as the Guard Empowerment Act.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. BISHOP

    Mr. Bishop. What is the Air Force doing today or in the near future 
to plan for the next generation ground-based ICBM once the Minuteman 
III missiles have aged out of the inventory starting in 2020? Are Air 
Force or Department of Defense dollars currently being used to begin 
advanced planning in this area inasmuch as it takes between 18-20 years 
to field a major new weapons system?
    General Moseley and Secretary Wynne. The Air Force is committed, in 
accordance with Congressional direction in the FY2007 National Defense 
Authorization Act (NDAA), to sustain the deployed force through FY2030, 
ten years past the previously estimated end of service life. To comply 
with NDAA direction, the Air Force is extending the service life of the 
Minuteman III missile and supporting infrastructure by continuing our 
integrated process of aging surveillance, timely sustainment activities 
and modification programs. As our focus shifts from the current 
modernization programs to long-term weapon system sustainment, the Air 
Force will continue to assess advanced strategic missile technology 
through the ICBM Demonstration/Validation (Dem/Val) program. The ICBM 
Long Range Planning (ILRP) element of Dem/Val coordinates and balances 
these efforts to ensure the viability of the current ICBM weapon system 
while identifying potential areas of enterprise investment that could 
be applied to future ICBM recapitalization or other strategic missions.
    Mr. Bishop. Are you concerned about preserving the U.S. industrial 
base in the sensitive area of ICBM production and technology once the 
Minuteman III Propulsion Replacement Program (PRP) is completed in view 
of the likely gap between the end of the Minuteman III PRP program and 
production of a follow-on system. If so, what are your plans to address 
that concern?
    General Moseley and Secretary Wynne. The ICBM industrial base 
remains a critical element in the Air Force's ability to sustain the 
Minuteman III force through FY2030, in accordance with the FY2007 
National Defense Authorization Act. This represents a service life 
extension of the Minuteman III program, so as Minuteman modernization 
activities such as PRP are completed our focus will shift to weapon 
system sustainment, with the Air Force planning to continue to exercise 
unique industrial skills/capabilities through several existing programs 
such as: the ICBM Demonstration/Validation program; the Integrated High 
Payoff Rocket Propulsion Technology program; and the Technology for the 
Sustainment of Strategic Systems program. The intent of these programs 
is to investigate/demonstrate advanced strategic concepts and address 
science and technology issues to sustain strategic capabilities, to 
include solid rocket motor propulsion.
    Additionally, the Air Force continues to participate in recurring 
technical interchange meetings with the Navy Strategic Systems Program 
(SSP) to jointly identify/analyze areas of common technologies to most 
efficiently leverage the strategic industrial base.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. BORDALLO

    Ms. Bordallo. The Army currently plans to field 75 Joint Cargo 
Aircraft over the next several years. I am concerned that if the Air 
Force were to take the lead in the Joint Program Office that the 
fielding plan for the Army would be terminated. If the Air Force were 
to become executive agent for the Joint Cargo Aircraft (JCA) program, 
would the Air Force commit to continue fielding the current Army 
requirement of 75 aircraft for the JCA?
    General Moseley. The Air Force supports the same units receiving C-
27s and continuing with the beddown plan as proposed.
    Ms. Bordallo. I have read in recent media reports that the Air 
Force believes it should become the executive agent for the Joint Cargo 
Aircraft's Joint Program Office. As you are aware, on June 20, 2006, 
General John Corley, Vice Chief of Staff for the Air Force signed a 
Memorandum of Agreement (MOA) with General Richard Cody, Vice Chief of 
Staff for the Army that stated the Army would lead the Joint Program 
Office. What has changed since the signing of this MOA that would lead 
the Air Force to want to wrest control of the office away from the 
Army? Do you feel the results of the JROC process that lead to the 
eventual MOA with the Army were not thorough or complete enough?
    General Moseley. Since the 20 June 2006 Joint Cargo Aircraft (JCA) 
Memorandum of Agreement (MOA), the Air Force has supported the joint 
program. Its support included the JCA Capabilities Development Document 
approval in the 19 April 2007 Joint Requirements Oversight Council. As 
General Moseley stated in the 24 October 2007 hearing, he 
``absolutely'' supported the Army portion of the program.
    Intra-theater airlift, including time-sensitive mission-critical 
support to the Joint Force Land Component Commander, is essential to 
the success of the Joint Force Commander (JFC). The threshold issue is 
how best to employ any airlift platform, including the JCA, to meet 
joint intra-theater airlift needs. The Air Force believes the JFC can 
most effectively and efficiently match intra-theater airlift resources 
to requirements in a single pool of mobility assets under the Joint 
Force Air Component Commander.
    In response to related Senate Armed Services Committee language, 
the Air Force supports the proposition that if given the resources, the 
mission, and the requisite joint coordination process, it can and will 
continue to support JFC requirements. The Air Force is better 
positioned today than any other organization to accomplish the intra-
theater airlift mission and it does not expect delays in delivery of 
the JCA, should Congress decide to transfer the JCA program to the Air 
Force.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. FRANKS

    Mr. Franks. On October 23, 2007 the President reiterated his 
direction to the Department of Defense to achieve a credible deterrent 
in nuclear warheads. It is my belief that Congress must sufficiently 
fund the Department of the Air Force so that it does not have to run 
budget drills and be forced to decide between funding fighter jets, 
bombers, or nuclear missiles. I have been told the land-based leg of 
our nuclear Triad, the Minuteman III Land-Based Strategic Deterrent 
program, recently lost its ``highest national defense urgency ``DX'' 
designation. My understanding is that the sea-based leg of our nuclear 
Triad, the Trident II D5 program, is still considered to be a DX 
program of ``highest national defense urgency,'' as is demonstrated by 
the Navy's long-term budgeting for the D5 service life-extension 
program. Currently, the Air Force does not yet have any plans in place 
to either extend the life of the Minuteman III system, or to replace it 
with another system. How should this committee interpret the 
discrepancy between these two critical programs? I understand a Land-
Based Strategic Deterrent (LBSD) Acquisition Decision Memorandum (ADM) 
that provided recommendations for a follow-on Strategic Deterrence 
capability is awaiting determination by the Secretary of the Air Force. 
I am concerned that failure to forward a Land-Based Strategic Deterrent 
(LBSD) Acquisition Decision Memorandum (ADM) to OSD is another 
indication that the Air Force may not see the need to plan how to 
replace this critical capability when it ages out. Should the HASC 
conclude that these Department actions--or lack of--constitute a means 
of eliminating the land-based leg of the Triad entirely? Is the Air 
Force choosing not to fund the land-based leg of the Triad due to 
higher funding priorities?
    General Moseley. Minuteman III is a critical element of the 
Nation's strategic deterrence and the Air Force is committed to 
sustaining the Minuteman III force through FY2030, in accordance with 
the FY2007 National Defense Authorization Act (NDAA). To this end, we 
are extending the service life of the Minuteman III missile and its 
supporting infrastructure by continuing our integrated process of aging 
surveillance, timely sustainment activities, and modification programs. 
Earlier this year, the Department reduced the DX rating list from 22 to 
7 programs. The Air Force is requesting OSD (AT&L) give Minuteman III 
the industrial priority ranking appropriate to ensure its readiness by 
restoring the Minuteman III DX rating.
    The Air Force remains committed to maintaining a robust land-based 
strategic capability. The decision to defer development of a follow-on 
ICBM program was based on the extension of the Minuteman III service 
life to FY2030. Based on this extension, an Acquisition Decision 
Memorandum to support a follow-on ICBM program would be premature at 
this time.

                                  <all>

</pre></body></html>
